<html>
<title> - LEGISLATIVE HEARING ON H.R. 114, H.R. 3685, H.R. 4319, H.R. 4635, H.R. 4664, H.R. 4765, H.R. 5360, AND H.R. 5484</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
              LEGISLATIVE HEARING ON H.R. 114, H.R. 3685,
              H.R. 4319, H.R. 4635, H.R. 4664, H.R. 4765,
                        H.R. 5360, AND H.R. 5484

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2010

                               __________

                           Serial No. 111-84

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
57-028                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             June 10, 2010

                                                                   Page
Legislative Hearing on H.R. 114, H.R. 3685, H.R. 4319, H.R. 4635,
  H.R. 4664, H.R. 4765, H.R. 5360, and H.R. 5484.................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    24
Hon. John Boozman, Ranking Republican Member, prepared statement 
  of.............................................................    25
Hon. Harry Teague, prepared statement of.........................    25

                               WITNESSES

U.S. Department of Veterans Affairs, Thomas J. Pamperin, 
  Associate Deputy Under Secretary for Policy and Program 
  Management, Veterans Benefits Administration...................    16
    Prepared statement of Mr. Pamperin...........................    39

                                 ______

American Legion, Catherine A. Trombley, Assistant Director, 
  National Economic Commission...................................     6
    Prepared statement of Ms. Trombley...........................    30
American Optometric Association, Michael R. Duenas, O.D., 
  Associate Director, Health Sciences and Policy.................    10
    Prepared statement of Dr. Duenas.............................    36
Blinded Veterans Association, Thomas Zampieri, Ph.D., Director of 
  Government Relations...........................................     9
    Prepared statement of Dr. Zampieri...........................    35
DeFazio, Hon. Peter A., a Representative in Congress from the 
  State of Oregon................................................     2
    Prepared statement of Congressman DeFazio....................    25
Fortenberry, Hon. Jeff, a Representative in Congress from the 
  State of Nebraska..............................................     3
    Prepared statement of Congressman Fortenberry................    27
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislation Director...........................................     5
    Prepared statement of Mr. Daley..............................    28
Stearns, Hon. Cliff, a Representative in Congress from the State 
  of Florida.....................................................     2
    Prepared statement of Congressman Stearns....................    27
Veterans of Foreign Wars of the United States, Eric A. Hilleman, 
  Director, National Legislative Service.........................     8
    Prepared statement of Mr. Hilleman...........................    33

                       SUBMISSIONS FOR THE RECORD

American Veterans (AMVETS), Raymond C. Kelley, National 
  Legislative Director, statement................................    43
Kratovil, Hon. Frank, Jr., a Representative in Congress from the 
  State of Maryland, statement...................................    44
Moran, Hon. Jerry, a Representative in Congress from the State of 
  Kansas, statement..............................................    45

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, to 
  Catherine A. Trombley, Assistant Director, National Economic 
  Commission, American Legion, letter dated June 14, 2010, and 
  response letter dated July 7, 2010.............................    47
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs, to Thomas 
  J. Pamperin, Associate Deputy Under Secretary for Policy and 
  Program Management, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs, letter dated June 14, 2010, and 
  VA responses...................................................    48


              LEGISLATIVE HEARING ON H.R. 114, H.R. 3685,
              H.R. 4319, H.R. 4635, H.R. 4664, H.R. 4765,
                        H.R. 5360, AND H.R. 5484

                              ----------                              


                        THURSDAY, JUNE 10, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:00 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Adler, 
Kirkpatrick, Teague, and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity, hearing on pending legislation will come to order. 
I would like to call attention to the fact that the Honorable 
Frank Kratovil and American Veterans (AMVETS) have asked to 
submit written testimony for the record. I ask unanimous 
consent that their statements be entered into the record.
    Hearing no objection so ordered.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and that written 
statements be made part of the record. Hearing no objection, so 
ordered.
    I am going to forego my opening statement and ask the 
Ranking Member to do as well.
    We will go right to our first panel and recognize our 
colleagues in support of their bills being considered before 
our Subcommittee here today. So Mr. DeFazio, you are now 
recognized to speak on H.R. 4765.
    [The prepared statement of Chairwoman. Herseth Sandlin 
appears on p. 24.]

   STATEMENTS OF HON. PETER A. DEFAZIO, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF OREGON; HON. CLIFF STEARNS, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA; AND HON. 
 JEFF FORTENBERRY, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
                          OF NEBRASKA

               STATEMENT OF HON. PETER A. DEFAZIO

    Mr. DeFazio. Thank you, Madam Chair and Ranking Member 
Boozman, who I sat in another hearing with earlier today. I 
appreciate your consideration and the Subcommittee's 
consideration of H.R. 4765.
    Very quickly, the history is for more than 30 years, Oregon 
Congressional offices have utilized U.S. Department of Veterans 
Affairs (VA) work-studies. I have had work studies for 23 
years. A number of my VA work-studies have gone on to work at 
the Veterans Administration, at the Pentagon. A number of our 
county veteran service officers during their training and their 
work-study, they have helped thousands of veterans get benefits 
that they earned and deserve. Unfortunately, someone, somewhere 
in the bowels of the VA, decided that this was not an 
authorized program and has moved to terminate the eligibility 
of Congressional offices.
    Senator Wyden and I and the entire Oregon delegation are 
respectfully requesting that we give explicit authorization, as 
part of your legislation on work-studies, to allow VA workspace 
to work in Congressional offices. It is incredibly valuable for 
the veterans themselves for getting the work-study experience. 
It often opens up career opportunities for them and it helps 
America's veterans get their benefits. So with that I would 
yield back the balance of my time.
    [The prepared statement of Congressman DeFazio appears 
appears on p. 25.]
    Ms. Herseth Sandlin. Thank you, Mr. DeFazio. It is a very 
important bill that we will consider further. We appreciate 
your testimony. The Ranking Member and I were ourselves many 
years ago--well, a few years back, both of us were work-study 
students ourselves. So we appreciate you bringing this to our 
attention.
    Mr. Boozman. Some fewer than others.
    Ms. Herseth Sandlin. But you and Senator Wyden and others 
have benefited from these students in your Congressional 
district offices, and so we look forward to working with you to 
move the bill forward.
    Mr. DeFazio. Thank you very much.
    Ms. Herseth Sandlin. Mr. Stearns, welcome to our 
Subcommittee. Mr. Stearns is also a Member of our full 
Committee. I appreciate you being here, and you are recognized 
to speak to your legislation.

              STATEMENT OF THE HON. CLIFF STEARNS

    Mr. Stearns. Thank you Madam Chair, and thank you Ranking 
Member Boozman. I ask unanimous consent that my opening 
statement or my statement be part of the record.
    Ms. Herseth Sandlin. Hearing no objection, so ordered.
    Mr. Stearns. The bill we are talking about, H.R. 3685, 
would simply require the Department of Veterans Affairs to have 
a drop-down menu titled ``Veterans Employment'' on its home 
page. If you go to the home page of the Veterans Affairs, there 
is, in the lower right hand side, there is a category for 
Federal jobs, but it is not linked to private-sector jobs. You 
have to go up to the top of the page, and then you hit a pull-
down menu, and within that pull-down menu is something called 
VetSuccess. Now, within VetSuccess you have to go through all 
kinds of--in fact, if you are a veteran looking for a job it is 
a daunting task. Even when you look for Federal jobs, it is 
difficult. But to get the private jobs you have to click on a 
veteran service drop-down menu and navigate 28 possible links. 
When you go to Monster.com, you can quickly put in a zip code 
and get all the jobs in your area. You can't do that. And they 
have separated the Federal jobs from the private jobs.
    I think you could have one drop-down menu that would 
include all the jobs for veterans in the private and Federal 
Government all in one site and make it easier.
    So I think my suggestion with this bill is that to make it 
easier, tell the Veterans Affairs that the word ``VetSuccess'' 
does not even imply private sector jobs. So in the long-term, 
you know, the veteran who is coming back and looking for a job 
is having a hard time finding it in the Federal Government, in 
the private sector, why not have it reconfigured so that 
everything is together and that it is easy for the veteran to 
determine what jobs in his areas are available.
    Now, I finally went through and did it. I put in my zip 
code and I came up with 14 jobs but they were an hour and a 
half to 2 hours away. So there has to be some discernment here 
so the veteran can't look for a job that is 2 hours away. He is 
looking for that area. If you wanted it 2 hours away, you would 
put in a different zip code. So if there is nobody in that zip 
code and there is no job, it should say ``zero'' and not refer 
you to other zip codes that are 2 hours away.
    So I am just asking that we take some of the private-sector 
Monster.com approach, which is easy. I went in there and found 
237 jobs in my local town. So I think my bill should be 
carefully looked at and work with the Veterans Affairs so we 
can get it expedited for our veterans. Thank you Madam Chair.
    [The prepared statement of Congressman Stearns appears on 
p. 27.]
    Ms. Herseth Sandlin. Thank you Mr. Stearns.
    Mr. Fortenberry, you are now recognized to speak on your 
bill, H.R. 114.

               STATEMENT OF HON. JEFF FORTENBERRY

    Mr. Fortenberry. Thank you, Madam Chair and Ranking Member 
Boozman, Members of the Subcommittee, for allowing me to 
testify today on the ``Veterans Entrepreneurial Transition 
Business Benefit Act of 2009.''
    I do want to begin by commending the Subcommittee on its 
work to provide economic opportunities for our Nation's finest, 
particularly after their service. Encouraging entrepreneurship 
among our veterans should be, I believe, a high legislative 
priority. While the GI Bill, and especially the Post-9/11 GI 
Bill, provide outstanding educational opportunities to 
veterans, not all veterans undertake a path of higher education 
after their military service. According to the Department of 
Veterans Affairs those eligible for the Post-9/11 GI Bill, 41 
percent have not used any of their benefits. Those eligible for 
the Montgomery GI Bill, about 30 percent have not used any of 
those benefits. And even larger numbers of veterans, Madam 
Chair, have used some benefits but have not completed a degree.
    Many of my own constituents have informed me that they 
would like to see greater entrepreneurial opportunities 
available to them as a way of augmenting traditional 
educational opportunities after their service.
    In addition, as you know from recent hearings, unemployment 
figures for our Nation's newest veterans are very troubling, 
with 21.6 percent of 18- to 24-year-old male veterans from the 
Post-9/11 era unemployed in 2009. Nearly 22 percent of that age 
group unemployed.
    Many of our veterans do possess the drive and skills to 
become successful entrepreneurs but simply lack adequate 
capital to get there. They have learned important marketable 
skills during their time in service and often want to use that 
acquired expertise as a springboard to small business 
ownership.
    And so to address these issues, I introduced H.R. 114, the 
``Veterans Entrepreneurial Transition Business Benefit Act,'' 
to permit veterans eligible for assistance under the Montgomery 
GI Bill to elect to use those benefits to establish and operate 
a business that they own as a primary source of income. 
Allowing veterans to use their educational benefits as capital 
to start a business, combined with the exceptional counseling 
and training programs for veterans in small business that 
already exist within the Department of Veterans Affairs and the 
Small Business Administration would, I believe, propel many 
veterans to economic independence.
    My bill is deliberately brief in order to allow the 
Secretary operational flexibility in implementing and managing 
this program. I believe it is another step toward increasing 
the diversity of opportunities for veterans to use their earned 
benefits while strengthening the small business economy, 
creating jobs, as well as encouraging innovation. And I would 
appreciate your consideration.
    [The prepared statement of Congressman Fortenberry appears 
on p. 27.]
    Ms. Herseth Sandlin. Thank you, Mr. Fortenberry. We 
appreciate your testimony.
    Our second and third panels are all going to be providing 
their perspectives on the various bills pending today. We look 
forward to working with you and appreciate the work that you 
have done, the bill that you have introduced, and we will work 
closely with you moving forward. Thank you.
    We now have a pending series of votes, nine votes, so it 
will take us some time to return. I will consult with the 
Ranking Member to determine if there is a chance we may come 
back during the motion to recommit if we feel we can get 
through some additional testimony and matters before the 
Subcommittee today. Otherwise, it may take a bit of time for us 
to return. We apologize, but we will see you as soon as we can. 
The hearing is now recessed.
    [Recess.]
    Mr. Teague [presiding]. Can we now invite Panel 2 to the 
witness panel. Joining us on our second panel of witnesses is 
Mr. Richard Daley, Associate Legislation Director to the 
Paralyzed Veterans of America (PVA); Ms. Catherine A. Trombley, 
Assistant Director of the National Economic Commission for the 
American Legion; Mr. Eric Hilleman, Director of the National 
Legislative Service for the Veterans of Foreign Wars of the 
United States (VFW); Dr. Thomas Zampieri, Director of 
Government Relations for the Blinded Veterans of America (BVA); 
and Dr. Michael Duenas, Associate Director for Health, Science 
and Policy at the American Optometric Association (AOA).
    In the interest of time and courtesy to all the panelists 
here today, we ask that you limit your testimony to 5 minutes 
focusing on your comments and recommendations. Your entire 
written statement has been entered into the Committee record. 
Welcome to the Subcommittee.
    Mr. Daley, you are now recognized for 5 minutes.

 STATEMENTS OF RICHARD DALEY, ASSOCIATE LEGISLATION DIRECTOR, 
PARALYZED VETERANS OF AMERICA; CATHERINE A. TROMBLEY, ASSISTANT 
 DIRECTOR, NATIONAL ECONOMIC COMMISSION, AMERICAN LEGION; ERIC 
 A. HILLEMAN, DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS 
 OF FOREIGN WARS OF THE UNITED STATES; THOMAS ZAMPIERI, PH.D., 
DIRECTOR OF GOVERNMENT RELATIONS, BLINDED VETERANS ASSOCIATION; 
    AND MICHAEL R. DUENAS, O.D., ASSOCIATE DIRECTOR, HEALTH 
      SCIENCES AND POLICY, AMERICAN OPTOMETRIC ASSOCIATION

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Thank you, Chairman Teague, Ranking Member 
Boozman, Members of the Subcommittee. PVA is honored to 
participate in the hearing today to share our views on this 
proposed legislation. I have submitted our written testimony 
for the record and in the interest of time will review only a 
few of the bills. But let me say that as I did review the 
bills, that they are all good, positive things and they are 
designed to help the veterans, and I am sure they will be--
those that did pass will be appreciated by the veterans of your 
State and the veterans throughout the country.
    Legislation such as H.R. 114, the ``Veterans 
Entrepreneurial Transition Business Benefits Act,'' will be 
very important to some veterans. This will allow the benefits 
earned under the new GI Bill to be used to help establish and 
operate a business that the veteran will operate as their 
primary source of income. Every veteran does not want to attend 
college for 4 years, and for those few that have the desire, 
ambition and other funding available, this will help them 
achieve their dream; that is, the dream of owning a business. 
PVA supports this legislation.
    The bill, H.R. 3685, would combine various existing 
veterans employment Web sites that are currently available into 
one Web site. These employment sites would be placed under one 
location on the VA's main page. What a great idea. Why didn't 
we do this several years ago? It will certainly help make it 
easier for veterans as they search for employment.
    H.R. 4319 is the ``Specially Adapted Housing Assistance 
Enhancement Act of 2009,'' another great idea. It was the 109th 
Congress that passed the legislation to create the temporary 
resident assistance adaptation grant to better accommodate 
seriously injured veterans during the rehabilitation or 
transition back to the civilian world. After several years, 
very few veterans applied for the grant. The U.S. Government 
Accountability Office report told us why. That is because the 
money for the grant is subtracted from the original grant 
totals that the veterans would some day need for their 
permanent housing. That total amount for the specially adapted 
housing grant of $63,700 is inadequate to make any 
modifications or to build a totally accessible home today 
anyway, and to subtract from that total doesn't benefit the 
veteran at all for a house that he is only going to live in for 
maybe 6 months or a year.
    So H.R. 4319 fixes that problem, but H.R. 4319 is a 1-year 
pilot. PVA has concerns that it only fixes the problem until 
September 30th of 2012. PVA believes this should be a permanent 
grant, not a pilot.
    The ``Blinded Veterans Adaptation Housing Improvement Act 
of 2010,'' PVA supports H.R. 5360 since it would be difficult 
to contradict the years of knowledge of my colleague, Mr. Tom 
Zampieri of the Blinded Veterans Association. I understand that 
he also has received advice from Dr. John Boozman, who is also 
an expert in this field.
    As we approach the end of the session of 111th Congress, we 
hope that many of these issues discussed today, along with past 
issues, will become part of public law. We are thankful that 
this Subcommittee, along with its Members, have worked so hard 
to ensure that veterans of the current conflict, as well as 
veterans from conflicts of the past, will receive the support 
that they deserve.
    Chairman Teague, that concludes my testimony. I will be 
available for questions.
    [The prepared statement of Mr. Daley appears on p. 28.]
    Mr. Teague. Thank you very much.
    Ms. Trombley, you are recognized to speak for 5 minutes.

               STATEMENT OF CATHERINE A. TROMBLEY

    Ms. Trombley. Mr. Chairman, Ranking Member and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to present the American Legion's views on several 
pieces of legislation being considered today.
    H.R. 3685 requires the Department of Veterans Affairs to 
put a link to VetSuccess.com on its Web site, as well as a 
drop-down menu of job sites that encourage hiring veterans. The 
bill also calls for funds for national advertising of 
VetSuccess. VetSuccess is a comprehensive Web site that is 
designed to allow veterans to find information they need to be 
successful after service. The site has links to VANE and other 
job sites to include the Department of Labor (DOL), America's 
Job Banks, USA Jobs, and Monster.com. The VA already has 
VetSuccess on its Web site, but once a veteran clicks on 
VetSuccess, there is a jobs menu to include the other job 
sites. Unfortunately, to get to those other job sites the 
veteran must first know what VetSuccess is. If the veteran is 
unaware what VetSuccess is, he or she will never get to the 
jobs menu from the main page.
    However, to regulate how the VA designs its Web site could 
essentially bind the VA's Web designers to a drop-down menu 
even as technology and design elements evolve. For this reason 
the American Legion does not support this part of the 
legislation. However, we do fully support funding for outreach 
through national advertising of VetSuccess. The American Legion 
believes this Web site is a great resource for veterans, but 
veterans have to know what it is and where to find it in order 
to take full advantage of all it offers. Therefore, the 
American Legion does support the part of the legislation that 
designates funds for national advertising.
    The American Legion supports measures that encourage 
employers to hire veterans. We know veterans make great 
employees because the discipline learned in military service 
transfers to the civilian workforce. Veterans typically show up 
to work on time. They not only understand what it is to be a 
good leader but how to be a good follower. They are mission-
focused, used to being challenged, and have a strong work ethic 
and valuable training.
    Despite all this, Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF) veterans between the ages of 18 
and 24 have a jobless rate of 21.1 percent in 2009. Numerous 
national publications have reported veterans have a difficult 
time finding jobs due to physical and mental disabilities, 
multiple deployments and problems translating military skills 
into the civilian workforce language.
    The Veteran Friendly Business Act mandates VA to establish 
an awards program for companies that hire veterans and keep 
them gainfully employed. We fully support this proposed 
legislation as it will encourage companies to hire veterans and 
acknowledge those that already do so.
    H.R. 4765 seeks to amend title 38 U.S.C. to authorize 
veterans enrolled in VA educational programs, and thus eligible 
for work-study, to receive work-study allowances for outreach 
services in Congressional district offices. These services 
include distributing information to members of the Armed 
Forces, veterans and their dependents, about the benefits and 
services administered by the VA. Work-study veterans will also 
prepare and process papers and other documents, including 
documents to assist in the presentation of claims for benefits.
    The American Legion believes serving in a Congressional 
district office would be a beneficial experience for any 
veteran. However, we have concerns about the type of work 
proposed. It is true veterans are comfortable talking to other 
veterans as we all share a common bond. But in order to give 
any proper claims assistance or advice on benefits, a person 
should be accredited by the VA. We believe a work-study veteran 
who processes materials for claims could be mistaken as a 
subject matter expert by another veteran. This could put both 
veterans at risk. The work-study veteran who gave advice could 
be held liable for presenting himself as a subject matter 
expert, and the veteran seeking assistance could jeopardize his 
or her claim. Therefore, the American Legion's request of this 
legislation includes strict guidelines to ensure work-study 
veterans do not give benefits advice to veterans seeking help 
with their VA claims.
    The American Legion appreciates the opportunity to comment 
on the bills being considered today by the Subcommittee, and I 
would be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Trombley appears on p. 30.]
    Mr. Teague. Thank you.
    Mr. Hilleman, your testimony is now recognized for 5 
minutes.

                 STATEMENT OF ERIC A. HILLEMAN

    Mr. Hilleman. Thank you Congressman Teague, Ranking Member 
Boozman. On behalf of the 2.1 million members of the Veterans 
of Foreign Wars and our auxiliaries, the VFW would like to 
thank you today for the opportunity to present our views on 
today's pending legislation. Given the number of bills pending 
before this Subcommittee today, I will limit my remarks to 
three.
    H.R. 114, the ``Veterans Entrepreneurial Transition 
Business Benefit Act.'' This legislation seeks to allow 
veterans to utilize chapter 30 Montgomery GI Bill benefits for 
business startup, expenses and/or operations as determined by 
the Secretary of Veterans Affairs. The VFW opposes this 
legislation. The intent of the GI Bill is to provide training 
and education. The GI Bill is a unique program where veterans 
may attend business school, or take a class to strengthen their 
business aspirations, yet the sole purpose of the GI Bill is to 
provide education, training and the skills to help veterans 
succeed, not provide startup money for a business.
    The Small Business Administration has programs, which 
address the specific needs of business startups. The SBA 
provides opportunities for loan guarantees and business 
development to help veterans start and grow their own business. 
Any veteran wishing to venture into entrepreneurship should be 
referred to these organizations and opportunities, not the VA. 
The VFW strongly supports improving SBA services for veterans 
whenever possible. This proposed shift may result in 
duplicative efforts between VA and SBA. We oppose shifting the 
purpose of the GI Bill and charging VA with managing business 
programs, which it has not historically managed.
    H.R. 4765, we support this legislation which would allow 
individuals who are pursuing programs of rehabilitation, 
education and training with VA to pursue work-study in 
Congressional offices. The VFW believes the experience gained 
through work-study exposes a veteran to potential career tracks 
and helps them get a jump start on their career. As the 
Subcommittee is well aware, other such work-study programs for 
veterans are fast approaching a sunset date of June 30th of 
2010. Areas impacted will be outreach domiciliary care and 
cemeteries, to name a few. Currently this work-study extension 
is tied up in a benefits bill, H.R. 1037, that has yet to be 
completed from last year. The VFW would like to stress the 
importance of work-study programs and the offices that rely on 
these talented veterans for their ambition, their drive, and 
their hard work. We can attest to the education and 
professional development that these young people receive, as we 
have had interns in similar situations in our own office.
    We look toward to continue to work with both the House and 
the Senate Veterans' Affairs Committee to advance the benefits 
legislation and ensure that veterans continue to have the 
opportunities to develop professionally while pursuing an 
education.
    Finally, H.R. 5484, the ``Veterans-Friendly Business Act of 
2010.'' The VFW strongly supports this legislation. This 
legislation, under the direction of the Secretary of Veterans 
Affairs, establishes an annual reward program for businesses 
that dramatically contribute to veterans employment. This bill 
will help raise awareness and stress the value of veterans in 
the workplace.
    The VFW applauds businesses who lead in this field. They 
deserve their due recognition for setting an example to all 
employers. The VFW encourages Congress to consider adding 
accolades from the Secretary of Labor to this award. In adding 
DOL, the government has the opportunity to elevate veterans 
employment among the two agencies that are charged with 
addressing this issue. We feel employers would be further 
rewarded by the due recognition from both Secretaries.
    Thank you, Madam Chairwoman. This concludes my testimony. 
And I would be happy to answer any questions that you or this 
Subcommittee may have.
    [The prepared statement of Mr. Hilleman appears on p. 33.]
    Ms. Herseth Sandlin [presiding]. Thank you, Mr. Hilleman.
    Dr. Zampieri, you are now recognized.

              STATEMENT OF THOMAS ZAMPIERI, PH.D.

    Mr. Zampieri. On behalf of the Blinded Veterans 
Association, we appreciate the invitation today to address the 
bills that are before the Subcommittee. In order to save time, 
I won't go through all the various bills. I wanted to restrict 
comments to thanking you and Ranking Member Boozman for 
introducing H.R. 5360, the ``Blind Veterans Adaptive Housing 
Improvement Act.'' This came out of the hearing that we had 
last fall on different changes that could possibly be made in 
regards to the Adaptive Housing Grant Program.
    We had had problems with the restrictive language that was 
currently in place of 5200 being used as the definition for 
being eligible for this grant. The standards for blindness is 
2200, or 20 degrees or less of peripheral field loss, and we 
would ask that this be changed for several reasons. One is that 
a lot of individuals who are at the accepted standard of 2200 
are legally blind and they need to be able to access the 
adaptive housing grant in order to make changes so that they 
can live independently in their own homes. And this would also 
be consistent with what Public Law 110-157, which was H.R. 797, 
which passed back in December 2007, which corrected another 
problem in VBA where they were using a 5200 standard in order 
to--for a paired organ. I would point out that it was sort of 
interesting that when that originally came up, there was a lot 
of concern that we were going to be opening up the system for--
one estimate was like 45,000 veterans. And since that change 
the actual number of veterans that have applied under the 
paired organ thing, using the 2200 standard, is less than 500.
    So it is difficult when you get into these things, I think 
sometimes, to determine exactly the numbers that may fall out; 
because when you are talking about clinical standards versus 
the service-connected numbers of veterans who are all service-
connected for vision problems, you may be led down the path of 
thinking that this is a lot more veterans than what our 
experience has been. So we appreciate that you have introduced 
this.
    As I have testified before, there are tremendous numbers of 
OIF and OEF servicemembers coming back with a variety of 
traumatic brain injuries (TBIs), with vision problems and 
impairments, and they are falling into this problem of not 
meeting this criteria in order to be able to have the grants.
    So I appreciate being able to testify today and will be 
happy to answer any questions and refer to my testimony about 
the other bills that are pending today. Thank you very much.
    [The prepared statement of Dr. Zampieri appears on p. 35.]
    Ms. Herseth Sandlin. Thank you, Doctor.
    Dr. Duenas, am I pronouncing that correctly?
    Dr. Duenas. Yes you did.
    Ms. Herseth Sandlin. Thank you.

              STATEMENT OF MICHAEL R. DUENAS, O.D.

    Dr. Duenas. I am a licensed doctor of optometry in the 
States of Florida, Georgia, and Connecticut, and I have served 
patients in north Florida and southern Georgia for more than 23 
years. I currently serve as Associate Director of Health 
Sciences and Policy for the American Optometric Association. I 
most recently served at the U.S. Centers for Disease Control 
and Prevention and have been a key player in the blind 
community and low-vision rehabilitation sector, serving as 
Director at Lighthouse International.
    The AOA appreciates this opportunity to testify today. We 
commend you, Madam Chairwoman and Ranking Member Boozman, our 
esteemed optometric colleague, and Members of the Subcommittee 
for the leadership and vision that you have demonstrated 
through your continuing work to make certain that America 
fulfills her promise to all veterans, including ensuring full 
and complete access to vision and eye health care services they 
both need and deserve.
    The AOA, with more than 36,000 members in over 6,500 
communities nationwide, shares your commitment to serving 
America's veterans, including those blinded and vision 
disabled. In fact, many years ago the AOA proudly supported the 
creation of the Veterans Health Administration Optometry 
Service, and during the more than a quarter of a century since 
its inception, the Optometry Service has evolved into providing 
a majority of primary eye care and low-vision rehabilitation 
services to our Nation's veterans.
    Today we proudly offer our support for H.R. 5360. This act 
is much needed in the Specially Adaptive Housing Program. We 
believe that it is an important program that provides a vital 
link for our disabled veterans and helps them gain a sense of 
normalcy as they adjust to civilian life and a new disability.
    The AOA shares the Committee's concern that the currently 
used visual acuity standard is in need of refinement. And today 
I would like to make three points regarding those refinements.
    First, as you know, the current law excludes coverage for 
many disabled veterans who are legally blind, because it sets 
the threshold four times higher than the legal definition of 
blindness. H.R. 5360 will fix this lasting problem and will 
ultimately help our wounded warriors. The AOA, as such, 
supports the proposed modified standard visual acuity 
eligibility to include visual acuity of 2200 as opposed to a 
four-times worse requirement of 5200.
    Secondly, through the VA Optometry Service hundreds of 
highly trained doctors of optometry provide a critical array of 
high-quality care, prevention, treatment and rehabilitation. So 
as not to deny benefits for blind and disabled veterans that 
use assisted medical technologies, the AOA believes that the 
qualifying statement of ``best corrected'' needs further 
refinement. Without an additional modification, the act could 
exclude legally blinded veterans using special medical-
prescribed low-vision devices such as mounted telescopes, 
reverse telescopes and other special medical equipment. These 
devices are not considered standard glasses and are not 
standard correcting lenses.
    Third, the AOA believes that the current definition of 
blindness contained in H.R. 5360 may not fully relate field 
loss to the equivalency of visual acuity loss in each eye. This 
determination of functional equivalency is important, and as 
such, the AOA recommends that the language defining legal 
blindness should be consistent with the commonly used and 
recognized definition of legal blindness, which is referenced 
in our written statement. Therefore, the AOA recommends that 
the final language of the Veterans Adapted Housing Improvement 
Act of 2010 read as proposed in our statement submitted for the 
record today.
    And in conclusion, the AOA truly appreciates this 
opportunity to testify today. We are thankful for the hard work 
of your Subcommittee, and as doctors of optometry around the 
country we remain committed to serving America's wounded 
warriors. We look forward to translating the benefits of this 
Act into even more--to more deserving veterans.
    We look forward to working with this Subcommittee to 
advance H.R. 5360, as well as on other veterans issues in the 
future. Together we can work to make certain that America 
fulfills her promise to all veterans, including ensuring full 
and complete access to vision and eye health care services they 
both need and deserve. Thank you.
    [The prepared statement of Mr. Duenas appears on p. 36.]
    Ms. Herseth Sandlin. Thank you.
    Dr. Zampieri, if we could start with you. Could you just 
explain in layman's terms the difference between the 5200 
standard and the 2200 standard?
    Mr. Zampieri. Yes. The 5200 is what a blind individual at 5 
feet would be able to see versus a normal vision person would 
be able to see the same thing at 200 feet. And the 2200 is the 
accepted standard for legal blindness. And so at 20 feet a 
blind individual, for example, would be able to see something 
on the eye chart that, again, as somebody with normal vision at 
200 feet would be able to see. And so all 50 States define 
legal blindness as 2200 and Social Security and, ironically, 
VBA's 2200 for determination of 100 percent service-connected 
for blindness.
    And so this would hopefully answer your question, but it 
would make it all standardized.
    Ms. Herseth Sandlin. So you are not aware of anywhere 
else--so you have just indicated that even with other VA 
programs they are using the 2200 standard for purposes of 
calculating disability, service-connected disability?
    Mr. Zampieri. Correct.
    Ms. Herseth Sandlin. But as far as you are aware, the only 
place where the 5200 standard is still being used within 
government, within the industry, within the profession, is 
within the Specially Adaptive Housing program?
    Mr. Zampieri. Right. In fact, ironically, when H.R. 797 was 
being worked on, I stumbled into the Senate version of that 
bill 4 years ago, actually, and tried to correct this 5200 in 
the adaptive housing. I am not sure how it got left out, but 
anyway. I think somebody on that side had realized that there 
was this other area, and I wish it had been fixed all at once. 
But this is the only place I know of in VA's regulations where 
5200 is being applied.
    Ms. Herseth Sandlin. And then, Dr. Duenas, you had 
suggested different language. Can you just explain again the 
difference that you see in the language or the potential 
difference in interpretation between your suggested language 
versus language already in the bill?
    Dr. Duenas. Absolutely. The language in the bill sets the 
standard at 2200 best corrected, which we believe is correct. 
The only thing with that is we have to realize that in some 
cases, through vision rehab, patients use telebinoculars, they 
use assisted devices for enhancing their vision for certain 
tasks. And sometimes there is a barrier set up to low-vision 
care because a patient may come in and say, ``I am afraid. 
Right now I am 2200 and if I use the device you may improve me 
to 2070, let's say, in order to do a specific task. Would that 
disqualify me from the benefits that I am entitled to?'' And 
under the current definition that is used here which is ``best 
corrected,'' it would disqualify them because you would say 
they are best corrected to better than 2200.
    So for vision rehab what we need to do is say that it is 
with standard correction, best corrected with standard 
correction. And then that way it will not set up a barrier to 
care for vision rehabilitation.
    The other point is simply that the definition, the way it 
is designed in other statutes, including U.S. Code title 42 for 
disability, mentions that the visual field of 20 degrees or 
less, it takes that and equates that to a quality of 2200 or 
less acuity. So it is making an assessment of the quality of 
vision loss. And that quality determination is important 
because it sets the stage for other things when we start to 
look at quality-of-life issues and other issues. So I think 
that that other language that is used elsewhere is a little bit 
better in terms of its association to the field loss and visual 
acuity loss.
    Ms. Herseth Sandlin. I will have a question or two for 
other witnesses on the panel, but I want to recognize Dr. 
Boozman for his questions.
    Mr. Boozman. Thank you, Madam Chair. Again, thank all of 
you for being here, and as always contributing so much as you 
help us sort these bills out.
    I am particularly interested in the sense that my vocation 
is an optometrist. And I really do feel like, in fact I thank 
Chairwoman Herseth Sandlin for bringing this to our attention 
and getting it sorted out in the sense that I guess this is 
truly one of the few remaining areas where we have language 
like this that is so different than the standard method of 
doing things.
    And as Dr. Zampieri alluded to, I think that probably 
changing it is not going to affect that many patients, because 
when you get in that gray zone where it is less than 2200, 
nobody has the equipment, the charts, probably, to even know. 
So you give people the benefit of the doubt and go ahead and 
certify it in that way. So I think it is something that we need 
to do.
    And then I think that you make some really good points as 
far as the language. So I am sure we will be looking at that, 
envisioning as to how we need to clean that up. Again, thank 
you all for being here. And like I said, we will go from there.
    Ms. Herseth Sandlin. Thank you, Dr. Boozman.
    A question for Mr. Daley, Ms. Trombley or Mr. Hilleman on 
Mr. Fortenberry's bill, H.R. 114. Just give me your general 
thoughts. I mean, are your organizations in agreement with the 
objective? Do you believe small business benefits should be 
included under the umbrella of education benefits? Any concerns 
or not about the appropriateness of having under chapter 30 
business development benefits? I would just like to hear more 
of your thoughts, your organizations' thoughts on Mr. 
Fortenberry's bill.
    Mr. Daley. Well, if you are starting a small business or 
you want to do that, I said in the testimony that is only one 
piece of the puzzle. I mean you have to have the knowledge, you 
have to have the desire, and you have to want to work 7 days a 
week.
    But if you have all that stuff, money is the hardest thing 
to come by. And although there is a Small Business 
Administration and some other programs, it is still difficult 
to borrow money. This will give that person that may have spent 
10 years in the service, he feels like he earned that same 
amount of benefit that is in the GI Bill, but he doesn't want 
to go to college. Or maybe he has already gone to college on 
the side while he is in the service, and now he wants to start 
that business and doesn't have money.
    So, you know, I am just thinking that it is just we hear so 
much about the lack of opportunity out there for the veterans 
and how difficult it is for the new veterans, and maybe this is 
just one more door that we can open. I mean it is not going to 
encourage somebody to go out and get into a business that they 
don't belong, just because they are going to get a few thousand 
dollars from the VA under the GI Bill. So I just think it is a 
way to help a veteran basically.
    Ms. Trombley. We agree. Not every veteran is destined for 
college. And when you start a small business it can often take 
many months before you even turn a profit. So adding an extra 
income to veterans, who oftentimes have family and have to 
sustain the family, is a good thing.
    [The following was subsequently received from the American 
Legion:]

        After further review, the American Legion does not have a 
        position on this bill at this time.

    Mr. Hilleman. Thank you for the question, Madam Chairwoman. 
I agree with my colleagues to my right. The issue of not every 
veteran being destined for college is true. But under the GI 
Bill, there are other programs for training and education. The 
VFW is opposing this legislation on the grounds that if a 
veteran seeks to start a small business, there are programs 
that exist under the Small Business Administration to help them 
do that, to help them formulate a business plan, to help them 
think intelligently about the risk they are about to assume. 
Asking VA to take on these efforts would be possibly 
duplicative.
    The other concern and the primary concern that we have is 
that with the GI Bill, its intent is to educate and to train; 
it is not to be used for operating expenses for a business, for 
startup costs for a business or to pay business-related bills. 
We feel that if it is used in that manner, what is to stop it 
to be used for a whole host of other things that are not 
related to education or training.
    We have no objection to an individual seeking business 
classes on the GI Bill or getting additional training in the 
community based on the GI Bill to help them grow their 
business. But to use it as direct access to capital, we feel 
that departs dramatically from the original intent of what the 
GI Bill was created for. Thank you.
    Ms. Herseth Sandlin. Thank you, all of you, for your 
perspectives on that bill.
    Let me ask just one final question to Ms. Trombley. Do you 
believe that forcing lenders to agree to mediation will have 
fewer lenders participate in the VA loan program?
    Ms. Trombley. I am sorry, could you repeat the question, 
Madam Chairwoman?
    Ms. Herseth Sandlin. Do you believe that forcing lenders to 
agree to mediation will have fewer lenders participate in the 
VA loan program?
    Ms. Trombley. I don't. I think that, if anything, it is 
going to be an alternative mean. It is one more protection for 
a veteran to participate in the VA loan program. The VA already 
has programs set up so that if a veteran falls into financial 
trouble there are steps. This would just add another step to 
the process.
    Ms. Herseth Sandlin. Any other thoughts on that question by 
either Mr. Daley or Mr. Hilleman? No? Okay.
    Mr. Boozman, do you have any other final questions?
    Mr. Boozman. I guess the only thing I would like to ask 
now, the language that you would like to be changed. So you 
would like to say instead of ``best corrected,'' something to 
the effect of with a standard lens, correcting lens?
    Dr. Duenas. Right. We put the final in our written comment.
    Mr. Boozman. In the better eye with the use of a standard 
correcting lens.
    Dr. Duenas. Right.
    Mr. Boozman. Now, is that the language that is in most of 
these things? Does that really become a problem with low 
vision? I mean, I understand what you are saying.
    Dr. Duenas. It would set a new precedent by adding this 
additional qualifier, but it fixes a problem that is an ongoing 
problem. So, yes, again it would make it slightly different by 
one word. But again----
    Mr. Boozman. But it wouldn't really change it?
    Dr. Duenas. Not really.
    Mr. Boozman. You agree with that, Dr. Zampieri, don't you?
    Mr. Zampieri. Absolutely. You know, it is funny; as much as 
we have been involved with this, I think it is important, 
because I have had veterans who get some corrective devices and 
then suddenly they are told, well, you are all better. And I 
have some TBI patients from OIF who are functionally blind but 
in the exam room, you know, when you give them a corrective 
lens, all of a sudden they are not. And somebody is going to 
say, oh, okay, you know, you are not blind, you know, because 
your vision is corrected, you know, that way. Whereas that 
standard lens wouldn't be something that the individual would 
use out on the street for navigation and for mobility.
    And so actually I appreciate that AOA made that 
recommendation, because I would predict that that creates, it 
is probably a small loophole, but it would certainly be one 
that somebody is going to get caught in. So I would recommend 
that one change.
    Mr. Boozman. I think where we saw it in reverse was that 
people would maybe use a small telescope and then try and 
qualify for their driver's license based on the ability to use 
the telescope versus the regular glasses, which isn't quite the 
same, you know, driving behind binoculars.
    Dr. Duenas. You are absolutely right.
    Mr. Boozman. And you made a change to the field language. 
How does that affect?
    Dr. Duenas. The field language just makes it a little bit 
more standard from other U.S. Code. I think the other U.S. Code 
that we quoted from there in the final language that we are 
proposing, I think it is better, again, because it sets a 
qualifier that the acuity of 20 degrees--I mean the visual 
field of 20 degrees or less is the same as a central acuity 
loss of 2200 or less. So it sets an equivalency standard for 
the two.
    Rather than saying you are blind because of either A or B, 
what the other definition says is you are blind because of A, 
but B qualifies you as A. And it is a little bit different in 
its statement. And the difference comes when we start to look 
at things like, again, quality of life, a lot of different 
other ways in which we may eventually try to calculate cost and 
savings. So I think it is important to have it that way.
    Mr. Boozman. Dr. Zampieri, do you have a thought regarding 
the change in the field language?
    Mr. Zampieri. I agree. That is also a difficult area 
because you know it is hard for individuals to understand how 
peripheral field loss affects an individual. And there are even 
problems in the testing for that, because it is one of the 
things that is most commonly missed, especially with the 
traumatic brain injured patients.
    I just talked to a young female OIF veteran 2 days ago, 
that that was the one thing that was missed out in California 
was the field loss. And it wasn't maybe as evident for that 
individual until she got home and was having difficulty at work 
and doing other things that she found this low-vision 
optometrist who picked up on the level of the degree of field 
loss. And so, anyway, thank you.
    Mr. Boozman. Again, thank all of you very very much.
    Ms. Herseth Sandlin. Thank you to all of our witnesses. We 
value your perspectives and insight into these bills that our 
colleagues and some of us on the Committee have introduced, and 
we look forward to continue to get your insight and input as we 
move forward. So thank you for your recommendations.
    I would now invite the third panel to the witness table. 
Joining us on our third panel is Mr. Thomas Pamperin, Associate 
Deputy Under Secretary for Policy and Program Management at the 
Veterans Benefits Administration of the Department of Veterans 
Affairs. And Mr. Pamperin, Secretary Pamperin, is accompanied 
by Deputy Assistant General Counsel for U.S. Department of 
Veterans Affairs, John Brizzi, and Office of the General 
Counsel, Joseph Simpson.
    We thank you all for being here. And I would now recognize 
Mr. Pamperin for his statement to the Subcommittee.

    STATEMENT OF THOMAS J. PAMPERIN, ASSOCIATE DEPUTY UNDER 
SECRETARY FOR POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 ACCOMPANIED BY JOHN BRIZZI, DEPUTY ASSISTANT GENERAL COUNSEL, 
OFFICE OF GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
  AND JOSEPH E. SIMPSON, ATTORNEY, OFFICE OF GENERAL COUNSEL, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Pamperin. Good afternoon, Madam Chairman, Ranking 
Member Boozman and other Members of the Subcommittee. I am 
pleased to be here to provide the Department of Veterans 
Affairs views on the pending legislation.
    VA supports four of the bills on today's agenda. The first, 
Madam Chairman, is your bill H.R. 5360, the ``Blinded Veterans 
Housing Improvement Act.'' The bill would expand special 
adapted housing for the visually impaired. Provided Congress 
identifies appropriate and acceptable offsetting PAYGO cost 
savings, VA supports this legislation. We estimate the 
enactment of H.R. 5360 will result in benefit costs of $19.1 
million over 10 years.
    VA also supports H.R. 4765, which would authorize 
individuals pursuing programs of rehabilitation, education and 
training under chapters 30, 31, 32, 33 of title 38 and chapters 
1606 and 1607 of title 10 to receive work-study allowances for 
certain activities conducted at the offices of Members of 
Congress.
    VA has no objection to the enactment of H.R. 4765 subject 
to the identification of the appropriate and acceptable PAYGO 
offsets for any resulting additional cost. However, we believe 
some probably unintended drafting language in the last 
paragraph of the legislation would subject veterans in the 
program to certification and testing requirements found at 38 
U.S.C., chapter 59. We would be happy to work with you to avoid 
this unintended consequence. VA estimates H.R. 4765 would 
result in benefit costs of $7.3 million over 10 years.
    H.R. 3685 would impose certain requirements on VA's main 
Internet Web site page to include a hyperlink with a drop-down 
menu and direct access to VetSuccess Internet, USA Jobs, 
Internet Web site Job Central and other employment Web sites 
that focus on jobs for veterans. It would also require the 
Secretary to provide the awareness of VetSuccess Internet Web 
site by advertising in national media and to inform OIF/OEF of 
that success.
    Although VA is already substantially in compliance with the 
Web site requirement, we have heard the concerns about the fact 
that they are not integrated, and we will take that back and 
see what we can do.
    Additionally, VA Vocational Rehabilitation and Employment 
(VR&E) Service currently conducts outreach to OIF/OEF veterans 
through their Coming Home to Work Initiative and through other 
avenues such as disabled transition assistance program 
presentations. We estimate that a one-time cost associated with 
advertising to be approximately $900,000 during the 1st year. 
No additional costs are related to the conduct of outreach 
because this is currently being done by VR&E. No additional 
costs are associated with including the hyperlinks on the VA 
main Web page.
    H.R. 5484, the ``Veteran Family Business Act of 2010,'' 
would require the Secretary to establish an award program to 
recognize businesses for their contributions to veterans 
employment. VA supports this bill, and we do not believe that 
enactment would result in any significant cost.
    VA does not support three of the bills on today's agenda, 
as currently written. We would be pleased to work with the 
Subcommittee staff to resolve our concerns.
    The first of these three bills is H.R. 4319, the 
``Specially Adapted Housing Assistance Act.'' This bill would 
adjust the aggregate amount of special adaptive housing 
available to individuals residing temporarily with family 
members through fiscal year 2011. It would also add a new 
section to chapter 21 of the title 38 to define the term ``loss 
of use.''
    VA cannot support the bill as drafted. For purposes of the 
chapter, loss of use would mean any loss of use for which the 
individual is entitled to receive compensation under chapter 11 
of title 38.
    Currently under 38 U.S.C. 2101, an individual may only 
receive special adapted housing if his or her injuries were 
permanent and totally service connected, and if they meet 
specific rating criteria. Because the provision in section 3 
would not change those requirements, it is not clear how VA 
would apply the new definition of loss of use or whom it would 
benefit. Clearly, if the provision was enacted as written, it 
is likely to result in judicial interpretation. An example 
illustrating the point is included in my full statement. 
Without a clear understanding of the intent of section 3 of the 
bill, VA is unable to estimate the cost of enacting the 
proposal. Upon clarification VA will provide cost estimates for 
the record.
    H.R. 4635, the ``Foreclosure Mandatory Mediation Act,'' 
would require qualifying mortgagees, including lenders who hold 
Federally guaranteed or Federally insured loans, to consent to 
mandatory mediation before proceeding with foreclosure. The 
qualifying mortgagee would have to conduct, consistent with 
local applicable State requirements, a one-time mediation.
    Although we agree that the communication between mortgagers 
and the veteran is a good thing should the veteran get 
financial difficulties, and although we recognize that the 
provisions similar to this have been and continue to be adopted 
by local jurisdictions, several provisions of the bill are 
unclear: What it means for a mortgagee to conduct a mediation; 
what expenses a qualified mortgagee could pay in connection 
with the mediation; the intent of the requirement for mediation 
when local jurisdictions don't require such mediations; whether 
the requirement to mediate is based upon the status of the 
qualified mortgagee or is based on the type of loan the lenders 
intended to foreclose. Without a clear understanding of the 
intent of these bills, we are unable to estimate the cost.
    H.R. 114, the entrepreneurial transition benefit, would 
authorize veterans who are eligible to receive financial aid 
under the Montgomery GI Bill to elect to use that benefit, with 
the approval of VA, to establish it and own and operate its own 
business.
    VA cannot support the legislation as drafted. VA believes 
the GI education benefits should be preserved and the program 
administered as currently established. Because the proposed 
process would require VA to include business plans which are 
not a current area of VA expertise, the Small Business 
Administration may be better suited to develop business plans 
and provide self-employment support. We would be pleased to 
work with the Subcommittee and SBA to identify a suitable 
alternative.
    Finally, there is one bill that the VA respectfully defers 
to the Department of Defense. H.R. 4664 would amend the 
Servicemembers Civil Relief Act to provide a 1-year moratorium 
on the sale or foreclosure of property owned by surviving 
spouses of service persons killed in Operations Iraqi Freedom 
or Enduring Freedom. We would point out, however, that the 
language of the bill with respect to having been killed in 
Iraqi Freedom or Enduring Freedom is not used consistently in 
the bill, in that the eligibility requirement appeared to 
require that the servicemember only have died while in support 
of such operations. VA is unable to estimate a cost of the 
proposal as it would depend upon an interpretation from the 
Department of Defense.
    Madam Chairman, this concludes my comments, and I would be 
happy to answer any questions you have.
    [The prepared statement of Mr. Pamperin appears on p. 39.]
    Ms. Herseth Sandlin. Thank you for your testimony, and I 
will focus my initial questions on that part of your testimony 
where you mention that the VA's VR&E Services Program is 
conducting outreach through several means, including DTAP, 
Disabled Transition Assistance Program.
    Mr. Pamperin. Yes.
    Ms. Herseth Sandlin. And I am wondering if the VA is 
participating with the Department of Labor in its reforms and 
overhaul of DTAP and the Transition Assistance Program (TAP).
    Mr. Pamperin. I am aware that the Department of Labor is 
revising those. We will--I would like to take that for the 
record to get back to you with the extent to which we are 
involved in it.
    Ms. Herseth Sandlin. I would appreciate that. That came up 
at a roundtable that Chairman Filner hosted, and Mr. 
Jefferson's comments about some of what they are looking at for 
TAP was more specific to TAP than DTAP. But I would appreciate 
if you could get back to us with more specifics about your 
involvement, sort of inner agency cooperation, coordination for 
sharing information with our veterans on their benefits.
    [The VA subsequently provided the following information:]

        The Department of Veterans Affairs (VA) is partnering with the 
        Department of Defense (DoD) and the Department of Labor (DOL) 
        to transform TAP into a 21st Century client-driven process to 
        increase Servicemembers knowledge and understanding of benefits 
        available through these agencies. The strategic goal is to 
        increase program effectiveness and ensure separating 
        Servicemembers and their families understand VA benefits and 
        services through delivering the material in multiple modes, 
        such as in-person briefings, virtual briefings, and on-line 
        learning modules. Together, VA, DoD, and DOL will leverage 
        advanced web technology through the eBenefits portal to improve 
        delivery of benefits gained through their military service.

        VA's Vocational Rehabilitation and Employment Program is in the 
        process of significantly overhauling its Disabled Transition 
        Assistance Program briefings and activities to modernize the 
        delivery of information provided to exiting Servicemembers and 
        Veterans who may have a service-related disability.

        The need for DTAP briefings is expected to grow as a result of 
        an increase in the number of Veterans found to have service-
        connected disabilities incurred during active duty while 
        serving in the Overseas Contingency Operation. In fiscal year 
        2007, 18 percent or 30,264, of the 164,637 Servicemembers who 
        received briefings through the Transition Assistance Program 
        (TAP) also received a DTAP briefing. To increase participation, 
        VR&E Service is undertaking an ambitious redesign of the DTAP 
        program.

        Due to the importance of the DTAP program, VR&E, with subject 
        matter expertise from DOL, awarded a contract to Inverness 
        Technologies in April 2010 to develop a modernized DTAP program 
        and a plan for seamless implementation of the redesigned 
        product. This process will involve new ways to fulfill the 
        strategic objectives of the DTAP program. It is the goal of 
        VR&E to transform DTAP into a world-class customer service 
        program--one that is completely Veteran-centric. The modernized 
        DTAP program and plan for implementation are expected to be 
        completed by December 2010.

    Ms. Herseth Sandlin. On Mr. Fortenberry's bill, H.R. 114, 
we all know that some veterans never use any portion of their 
GI Bill benefit. And I think that the intention of Mr. 
Fortenberry with this legislation is to identify the various 
needs, goals, aspirations of those who served and earned these 
benefits and how they might be utilized.
    You heard from some of the veterans service organizations 
in the prior panel, some supportive, some with concerns about 
how the bill is currently drafted. More in a general sense, do 
you agree that we should explore all options including business 
development options for veterans as it relates to utilization 
of GI Bill benefits?
    Mr. Pamperin. Please.
    Mr. Brizzi. If I may, certainly we are very willing to 
explore that, although I would think more in the context of our 
vocational rehabilitation programs than our education programs.
    Ms. Herseth Sandlin. So you wouldn't--so it would be the 
benefit under vocational rehabilitation breaking down some 
agency barriers as to who is best suited to perform what 
functions, whether it is approval of business plans--you could 
see that----
    Mr. Brizzi. You can see that being more related, this bill 
being more related, to that function than the education.
    Ms. Herseth Sandlin. Okay. Which would then relate to other 
legislative proposals we have had to modernize the benefit 
under vocational rehabilitation, as we did under the GI Bill.
    Mr. Brizzi. Yes, ma'am, yes.
    Ms. Herseth Sandlin. Okay. Let us talk briefly about the 
VA's authority to conduct media campaigns for any benefit. Mr. 
Pamperin, what media campaigns is the VA currently working on, 
if any, and does the VA have money specifically set aside for 
media advertisement?
    Mr. Pamperin. Ma'am, I would like to take that for the 
record, and I will get back to you.
    Ms. Herseth Sandlin. Okay. I think it is important. I mean, 
we have authority that you currently have and we have pending 
legislation that is looking to enhance that authority, 
facilitate more of this advertising, recognizing the resource 
issues. You have already had that authority.
    We know that a lot of our colleagues have good ideas coming 
from the experiences of their constituents on how to make 
information more readily available, and whether it is reforming 
TAP, whether it is how information is distributed versus Web 
sites, other bills and suggestions that we have taken, and we 
have tried to move forward again to most effectively 
communicate with veterans about their benefits.
    So if you could get back to us on even what you have done 
in the past, if you have done any kind of evaluation of any 
media advertisements of particular benefits that the VA has 
deemed has been most effective in tracking either information 
sought or programs for which veterans enrolled or sought access 
to, I think that would be beneficial to the Subcommittee.
    Mr. Pamperin. You are primarily speaking about print, radio 
and TV?
    Ms. Herseth Sandlin. Primarily. But I think we all know 
whether policy or the other part of what we do up here is sort 
of all these new media networks. I would think that with media 
advertisements now, you have Google ads, for some of these OIF, 
OEF veterans. I mean, have you done any testing of how you 
target Google ads in a more cost-effective way than buying 
advertising with a broadcast network in certain media markets?
    I would like to find out more what you are doing, if any, 
what you are thinking to do, how creatively people are thinking 
as it relates especially to the younger veterans. And the best 
thing we can all do is communicate with different 
constituencies through the medium they are most used to working 
with, how they are getting their information.
    Mr. Pamperin. Well, I can tell you a couple of weeks ago 
when I was up here and I was talking to you about the new 
benefits assistance service that one of their organizational 
activities is the social media, and monitoring Twitter and 
Facebook, and responding to inquiries from people that way. So 
we will include all of that in the response.
    Ms. Herseth Sandlin. Yes, very good, very good. But I think 
in your existing authority for media campaigns, whatever 
information you can provide us, you know, it would be nice for 
you to come back to us and say, yeah, we have been looking at 
all of these new social networks and Google and all these other 
avenues. If you haven't yet, that is fine. I just would 
encourage some creative strategies within existing authority as 
we look to better communicate about the benefits.
    [The VA subsequently provided the following information:]

        VA desires to use media campaigns to ensure servicemembers and 
        veterans understand their VA benefits and how to access these 
        services. To enhance and promote VA's outreach and 
        communication, the Office of Public and Intergovernmental 
        Affairs (OPIA) is launching the National Veterans Awareness 
        Campaign. In this campaign, OPIA will implement a two-phased 
        approach to develop a national outreach strategy and execute a 
        national media campaign. To be successful and effective, 
        outreach and communication must be well planned, researched, 
        executed, and measured. For Phase I, the Department will 
        collect Veteran demographic data and research and analyze 
        targeted audiences for effective media placement. It will also 
        develop an outreach strategy and strategic media plans. Phase I 
        will serve as the foundation for the advertising element of the 
        national outreach campaign, which will primarily occur during 
        Phase II. A contract for Phase I was awarded on July 15, 2010. 
        Using the data, research and audience analysis, and metrics for 
        success established during Phase I, Phase II will be 
        implemented to conduct the National Veterans Awareness Campaign 
        and produce, coordinate and place various national advertising 
        pieces.

        VA has funds in FY 2010 specifically allocated to support media 
        and communications campaigns, including geographically targeted 
        advertising at both the corporate and Administration levels. At 
        the corporate level, the OPIA and VHA have entered into an MOU 
        to enhance and promote VA's outreach and communication by 
        setting aside $30 million for the National Veterans Awareness 
        Campaign, which will be targeted at non-clinical information to 
        promote Veterans' understanding of VA. Within VBA, advertising 
        in FY 2010 is primarily directed at informing Veterans about 
        the Post-9/11 GI Bill and new innovative programs being tested 
        to expedite disability claims processing. Such advertising is 
        being examined for several geographic areas where pilot tests 
        are underway or planned.

    Ms. Herseth Sandlin. I have gone over my time. So let me 
thank you Mr. Pamperin.
    I recognize Mr. Boozman.
    Mr. Boozman. You are the Chairman. You have no time limit.
    I just want to ask a couple things. The work-study bill, 
can you tell me a little bit about if we were to go forward, 
how would you envision that work? Would that be something that 
you would want the office to select the people, or would you 
all do that, or do you have strong feelings that way?
    I guess I--the Chairman and I were talking. Both of us did 
work-study when we were in--when I was in optometry school and 
things and when she was in college, but it does--for a number 
of different reasons I think that is great that it is on 
somebody's resume.
    I think that that is an area in a Congressional office 
where you can actually learn something as you went forward. And 
again, it doesn't hurt to be on a resume. And then the other 
thing is it exposes a lot of people to veterans that may not 
have been exposed.
    My generation is such that percentagewise there is just a 
very few percentage of people that have served. My parents, my 
grandparents, my uncles, all of those generations served. And 
now we have a group of young people that are even smaller than 
my situation.
    So I think there is a number of good reasons to consider 
doing it. I guess what I would like, if you have any ideas as 
far as implementation.
    Mr. Pamperin. Well, typically veterans who need a little 
extra income and you advise them of the work-study program, 
they get in the program, and we assign them out to people. 
Given the fact that they would be working in a Congressional 
office, I would think that we wouldn't have a one-size-fits-
all. We would want to work with you, because clearly we would 
want to place somebody in that office that you were comfortable 
with. So I think we could be quite flexible on how that was 
done. If you knew a constituent who was a veteran, who was 
eligible, and you referred them, I think it is pretty much wide 
open on this thing. So we would be glad to work with the 
Committee.
    What I would envision is that whatever we would develop 
would be, first of all, focused on getting the serviceperson 
that additional little extra money that they need as quickly as 
possible, giving them a training opportunity that they feel is 
worthwhile and one where that person is a good fit in your 
office.
    Mr. Boozman. Very good. Well, I look forward to perhaps 
visiting more about that. It sounds like the Oregon delegation 
has done that extensively in the past, so we will be visiting 
with them and just trying to figure out if there were any 
problems, how we iron those out. But I don't really envision 
anything of that nature.
    The other thing very quickly, the upgrading, getting us on 
par as far as the definition of legal blindness, is there any 
problems with that?
    Mr. Pamperin. Well, as a matter of fact, Congressman 
Boozman, I was talking to the Compensation and Pension Service, 
which up until about 8 months ago I was the Deputy Director of, 
about that, I said, you know, we have the Traumatic 
Servicemembers' Group Life Insurance at 20 over 200. We have--a 
couple of years ago, we had Special Monthly Compensation (O) 
raised based upon 20 over 200, and now we are supporting a bill 
on special adapted housing at 20 over 200. And so we are going 
to go back and take a look at that because, quite frankly, 
right now the requirement for 100-percent disability is 5 over 
200.
    Mr. Boozman. Which is unlike--I am sorry, I don't mean to 
interrupt, but which is unlike disability in any other aspect 
that we use----
    Mr. Pamperin. Right.
    Mr. Boozman [continuing]. In the private sector, or, as you 
said, Social Security.
    Mr. Pamperin. We are going to go back and take a look and 
assess what the impact is, how many people are affected and----
    Mr. Boozman. I think Dr. Zampieri made a good point that 
you don't really--and again, I haven't been out to see the 
practitioners as far as their charts in the VA system, but, you 
know, if you have the charts, you are spending a lot of money 
because nobody has those charts hardly, but I would say that 
probably most----
    Mr. Pamperin. Are you talking about the Goldmann bowl, sir?
    Mr. Boozman. Well, I am saying as far as the qualifier. 
Probably most people, if they can't see the big E, they 
qualify. Rather than spending a lot of time to try and quantify 
it past that, because, again, they probably don't even have the 
charts in the lanes to exactly determine, and then you start 
playing games with standard charts for the--because that 
doesn't come up anyplace else. You see what I am saying?
    Mr. Pamperin. Yes, sir. I would echo back, though, the 
testimony from the American Optometric Association, because 
when we evaluate hearing loss, we do take into consideration 
both visual acuity and fields of vision----
    Mr. Boozman. Right.
    Mr. Pamperin [continuing]. And that severe loss as a field 
of vision can increase your evaluation as well. So the issue of 
the 5 over 200 by 20 over 200 is something that we will take a 
look at.
    Mr. Boozman. Very good. And like I said, I guess what I 
would like to know, if you look at it in a negative fashion, 
why we are doing that and everybody else has arrived at a 
different standard. So thank you very much.
    Mr. Brizzi. May I please add a little notation to that?
    Mr. Boozman. Oh, yes, sir.
    Mr. Brizzi. You still need to change the statute, though. 
Having said all that, you still need that statutory change for 
the specially adapted housing.
    Mr. Boozman. Yes, sir. And again, I appreciate the Chairman 
bringing that to our attention and getting legislation such 
that we can do that. So thank you very much.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I thank you all for your testimony, and I think in light of 
the Chair and the Ranking Member of the Subcommittee being the 
original cosponsors of the bill to make that statutory change, 
we do intend to move forward with that. We appreciate that you 
will take a closer look, and as we move forward, the faster we 
can get that information as you assess it internally in your 
department, the better it will be for in us moving the bill, 
because it is a priority for us, and we are on a short 
timetable to finish it up this Congress. So we will have 
Committee staff followup with you after this hearing to see if 
we can get that exchange of information as quickly as possible.
    Again, I want to thank everybody for their statements this 
afternoon. We look forward to continuing to work with you as we 
evaluate the suggestions that were provided to us today on 
these various bills. Feedback from stakeholders and subject 
matter experts such as yourselves is critical to developing 
effective legislation, making modifications to bills as they 
were originally introduced versus as they move through the 
Committee process. So we are going to continue to look for ways 
to improve existing programs, enact new ideas to ensure that 
the needs of our veterans and their families are being met. And 
as always, we will keep an open mind toward any suggestions and 
ideas that you have been generously sharing with us as we have 
undertaken our work.
    So I thank you again, and the hearing stands adjourned.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity

    I would like to call to attention the fact that the Honorable Frank 
Kratovil and AMVETS have asked to submit written testimony for the 
record. If there is no objection, I ask for unanimous consent that 
their statements be entered for the record. Hearing no objection, so 
entered.
    I ask unanimous consent that all Members have five legislative days 
to revise and extend their remarks and that written statements be made 
part of the record. Hearing no objection, so ordered.
    Today, we have a full schedule that includes eight bills before us 
that address some of the unique needs of our veterans population. The 
bills before us today seek to: expand the use of the Montgomery GI Bill 
benefits towards establishing a business; improve access to job search 
information through the Department of Veterans Affairs Web site; allow 
disabled veterans to adapt temporary housing to their needs without 
depleting the benefits they will eventually use towards adapting a 
permanent home; make mediation mandatory between mortgagors, mortgagees 
and a housing counseling agency prior to a foreclosure; provide for a 
1-year moratorium on the sale or foreclosure of property owned by 
surviving spouses of servicemembers killed in Iraq or Afghanistan; 
extend VA work-study program participation to include work within 
Congressional offices; and establish an award program that recognizes 
businesses for their contributions to veterans employment.
    Included in today's hearing is H.R. 5360, which I introduced with 
our distinguished Ranking Member, Congressman John Boozman. This bill 
seeks to align the Department of Veterans Affairs' definition of 
blindness with existing Federal laws when it comes to eligibility 
criteria for specially adapted housing grants. In November of 2009, the 
Subcommittee held a hearing on Specially Adapted Housing grants. During 
that hearing, it became clear that many visually impaired veterans that 
urgently require specially adapted housing do not qualify for the 
grants because they do not meet the excessively restrictive VA 
definition of blindness.
    Under current eligibility requirements, blinded or visually 
impaired veterans must have a visual acuity of five two-hundred (5/200) 
or less to qualify for VA grants that allow them to adapt their home 
into a configuration that improves both their standard of living and 
personal safety. The VA's current standard is excessively restrictive 
and goes far beyond the twenty two-hundred (20/200) definition of 
blindness codified in Federal statute and recognized by several 
different organizations including the U.S. Social Security 
Administration, and the VA when it comes to disability claims.
    Without Congressional intervention, the Department of Veterans 
Affairs' five two-hundred (5/200) standard of blindness for Specially 
Adapted Housing grants will remain unchanged and many visually impaired 
veterans will continue to be ineligible for the assistance they 
urgently need.
    I want to extend my thanks to the Blinded Veterans of America and 
the American Optometric Association for their assistance in drafting 
H.R. 5360. I also want to thank Ranking Member Boozman for contributing 
his critical expertise as an optometrist in support of this bill. I 
look forward to receiving feedback on all the other bills before us 
today.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                  Subcommittee on Economic Opportunity

    Good afternoon.
    Madam Chair, as we approach what will probably be our last 
Subcommittee markup for the 111th Congress, I want to thank you for the 
way you have chaired the Subcommittee. As chair, you have been a model 
of bipartisanship.
    Today's bills are an interesting collection. Some will require 
PAYGO offsets while others will not but I thank the sponsors for their 
work on behalf of our veterans. I note VA's concerns about some bills 
and I am willing to work with them to the extent possible to move bills 
forward. I am also reminded of the serious fiscal issues confronting 
this government and the need to focus on the most important issues 
facing all Americans.
    Madame Chair, I am eager to hear from today's witnesses and I yield 
back.

                                 <F-dash>
 Prepared Statement of Hon. Harry Teague, a Representative in Congress 
                      from the State of New Mexico

    Chairwoman Herseth-Sandlin, Ranking Member, thank you for allowing 
me a few moments to speak on H.R. 5484, the VetStar Veteran-Friendly 
Business Act and an opportunity to encourage more companies to hire 
veterans.
    As you are aware, veterans unemployment is a national crisis. The 
economic downturn combined with a large number of soldiers returning 
from war has created a tragic environment for those leaving the 
service. According to the Department of Labor, the unemployment rate in 
2009 for young Iraq and Afghanistan veterans, ages 18 to 24, was 21.1 
percent.
    This bill will recognize local businesses that go above and beyond 
by hiring the veterans who in today's economic environment are finding 
it increasingly difficult to find stable employment. There are a lot of 
great ideas floating around Washington right now for how to address 
this problem, and I believe it is going to take a multifaceted 
bipartisan effort to truly make a lasting impact. I don't believe there 
is a single silver bullet that can fix this problem all at once, but I 
believe that a low-cost reward system such as this could have a 
positive effect in encouraging businesses to do their part. By 
recognizing deserving businesses in our communities, this bill aims to 
not only increase opportunities for veterans, but also have a positive 
impact on the companies recognized. The VetStar certificate of 
recognition, to be displayed by business owners, would label them as a 
proven supporter of vets, and would aim to help businesses build a 
strong reputation in the veteran community and among Americans who 
support veterans.
    The heart of the issue and the VetStar Veteran-Friendly Business 
Act is to better serve our veterans by driving them towards stable 
economic opportunities while readjusting to society. I look forward to 
hearing from the VA and the other distinguished panel members today.
    Thank you Madam Chairwoman, this concludes my statement.

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
                   Congress from the State of Oregon

    Chairwoman Herseth-Sandlin and Ranking Member Boozman:
    Thank you for the opportunity to testify today. As representatives 
of the people, it is our job to help our constituents navigate the 
Federal bureaucracy. As you know, a significant portion of casework 
every year is generated by thousands of veterans seeking assistance 
with benefits and services. I cannot think of a more appropriate way to 
serve our constituents and to honor our veterans than by training and 
entrusting veteran students to help veterans get the benefits and 
services they earned.
History of Oregon VA work study
    Since the 1980's the Oregon delegation has employed VA work-study 
students in district offices to expand outreach to veterans. This 
program has been highly effective and leveraged a great return on 
investment for veterans. Like all VA work-study opportunities, the 
program pays veterans to work while they attend school. In Oregon, VA 
work study students can choose to work in a local congressional office 
with the sole mission of helping other veterans receive their benefits 
and services. The student veterans develop valuable job skills, and 
veterans they serve get quick help navigating the bureaucracy of the VA 
system. The VA work-study students placed in congressional offices 
provide appropriate, effective, and heartfelt assistance to veterans 
who contact congressional offices for help with and information about 
VA services and benefits.
    Veteran work study students have worked in my district office for 
the past 23 years, and I currently employ two former work-study 
students in my local congressional office. My predecessor also had VA 
work-study students working in his congressional office. Work-study 
students have worked in Senator Wyden's office for the entire time he 
has been in the Senate and for many of the years he served in the 
House. At least three of Senator Wyden's work-studies were ultimately 
hired on to Senate staff after their tenure as work study students in 
his office. Congressman Blumenauer's office had a successful first work 
study position in 2009 and planned to continue the position in his 
office.
VA Reversal
    Last year, the congressional offices in Oregon were notified 
intermittently they would no longer be eligible sites for the VA work-
study program for a variety of reasons. Congressman Schrader was denied 
access to the program as a new Member of Congress. Yet his predecessor, 
Congresswoman Darlene Hooley, was allowed to have VA work-study 
students in her office. Congressman Blumenauer was denied access to the 
program because ``the duties were not considered work-study 
activities'' and then was told any appeal to the decision needed to go 
through the regular veterans' appeal process. The VA also terminated 
contracts with VA work study students working at both Senator Wyden's 
and my office.
    Somewhere in the depths of the VA bureaucracy, lawyers have 
determined this highly successful program was never authorized and is 
now scheduled for termination. The VA should not be killing a program 
that has served veterans, and served them well, for more than a quarter 
of a century because some bureaucrat can't see the big picture.
    Terminating this VA work study program has already cost many Oregon 
veterans their jobs. The loss of this opportunity to develop jobs 
skills while helping fellow veterans is a disservice to the veteran 
work-study students and to the veterans who need help. Work study 
students in congressional offices have been key advocates for veterans 
and their family members and they help us respond quickly to vital 
needs of constituents.
    The entire Oregon delegation is deeply troubled that the proud 
tradition of veteran serving veterans in Oregon congressional offices 
is in jeopardy at a time when the wars in Iraq and Afghanistan have 
increased the number of veterans seeking our help with VA benefits and 
services. Also of concern is the VA decision to reduce the number of 
work-study positions available to Oregon veterans during an economic 
recession that has sent unemployment rates over 12 percent, with the 
rate for veterans even higher.
H.R. 4765
    To remedy this bureaucratic bungle and the inexplicable loss of 
services to veterans, I introduced H.R. 4765 to specifically authorize 
VA work-study student positions in congressional offices. The fact that 
this program needs to be legislated after 25+ years of operation is 
frustrating, but necessary.
    On the other hand, this legislation could help spur more VA work-
study slots in local congressional offices across the Nation and 
enhance service to our veterans. Congressional offices outside of 
Oregon have sporadically had the privilege of a VA work study student 
in their office, including Rep. Dennis Moore and Senator Sherrod Brown. 
H.R. 4765 would enable all Congressional offices access to VA work-
study opportunities. This is increasingly important as more and more 
veterans take advantage of the Post-9/11 GI Bill.
    This legislation ensures that the congressional work-study 
positions follow the established rules for all VA works-study 
positions. As has always been the case in my district office, 
Congressional work-study students would only be permitted to do two 
things--perform outreach services to servicemembers and veterans and 
their dependents and help veterans secure earned benefits and services. 
Work-study students would not be permitted to supplant congressional 
staff. VA work-study students would only expand and improve outreach 
and services to veterans, not free up congressional staff for other 
congressional activities. Every dollar invested in VA work-study 
students in congressional offices enhances the VA's efforts and our 
efforts to help veterans and their families.
    This bill is a win-win. There is a current shortage of work-study 
opportunities for veterans; and veterans of Iraq and Afghanistan need 
our advocacy and outreach. VA work-study students have instant rapport 
with their peers, our constituents. They are highly motivated, 
reliable, and dedicated individuals who want to continue their service 
to the Nation by helping veterans and their dependents.
    In these tough times, veterans who graduate from college with VA 
work-study experience have invaluable job skills to help them find 
employment. As experienced veteran advocates, they also have 
opportunities to continue working with veterans in congressional 
offices, in the Veterans Administration, for a country veteran service 
officer, or in a veteran service organization.
    The benefits to this program are on-going and should be continued 
without delay. It has been an honor and a privilege to have veterans 
working in my Congressional office and to provide excellent service to 
veterans and their dependents with the able assistance of VA work study 
students. This legislation will ensure the future of this proud and 
long-lasting tradition.

                                 <F-dash>
Prepared Statement of Hon. Cliff Stearns, a Representative in Congress 
                       from the State of Florida

    Thank you Chairwoman Herseth Sandlin and Ranking Member Boozman for 
providing me this opportunity to talk about my bill.
    Unemployment is at a record high today and unemployment in our 
veteran community is higher that at any time that I can remember. You 
know the situation is bad because this Committee held a roundtable on 
that very issue last month.
    My bill, H.R. 3685, would require that the Department of Veterans 
Affairs would have a drop-down menu titled ``Veterans Employment'' on 
its homepage. This drop menu would have links to VetSuccess, USA Jobs, 
Job Central and other appropriate employment Web sites. It would also 
require the Secretary of VA to advertise and promote the VetSuccess Web 
site and require direct outreach to OIF and OEF veterans.
    This bill comes out of discussions I had with the VA over the past 
couple of years and while the VA has addressed some of my concerns, 
they continue to miss the underlying reason for my bill: customer 
service and usability. The VA should have a clear link that will take 
veterans to a listing of jobs based on zip code.
    Today, if you are a veteran and are looking for a job, on the VA 
homepage under quick links is ``Federal Jobs for Veterans.'' This is 
close to what I want, but my goal was to have all employment 
opportunities, which includes private sector jobs, not just Federal 
jobs. To find private sector jobs in the vicinity of your zip code, you 
have to click on the Veteran Service dropdown menu and navigate 28 
possible links.
    There is no link for Veteran Employment or Veteran Jobs. Instead 
you need to know that VetSuccess is what you're looking for. If you're 
unfamiliar with veteran programs, you may not know that VetSuccess is 
the web portal for jobs. The title isn't clear. VetSuccess might be the 
link for successful navigation of the VA bureaucracy. The title should 
clearly mention jobs or employment.
    Then, once you get to the VetSuccess Web page you must register to 
look up jobs. You can't just type in your zip code and get a list of 
jobs. My office had to fill out an excessively long form, and then 
monitor our spam filter to catch the verification e-mail, click the e-
mail to prove we're human and then we waited for a follow up e-mail to 
get our password to finally access the VetSuccess job portal.
    This is too high a hurdle for something so simple as a job listing 
for veterans. You should be able to go to this site, type your zip code 
and get the job listings. When I typed in my zip code and found jobs in 
my hometown of Ocala and I got a list of 64 jobs, mostly Driving and 
Lawncare jobs.
    When I go to Monster.com, I don't need to register to do a quick 
lookup for the 237 jobs listed within 20 miles of Ocala. VetSuccess 
needs to be more like Monster: immediate access to job listings by zip 
code without hiding behind vague titles in a crowded drop menu with 
excessive registration requirements.

                                 <F-dash>
   Prepared Statement of Hon. Jeff Fortenberry, a Representative in 
                  Congress from the State of Nebraska

    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Subcommittee members, thank you for allowing me to testify today on the 
Veterans Entrepreneurial Transition Business Benefit Act of 2009, H.R. 
114. I want to begin by commending this Subcommittee on its work to 
provide economic opportunities to our Nation's finest after their 
service.
    Encouraging entrepreneurship among our veterans is a high 
legislative priority of mine. While the GI Bill and especially the 
Post-9/11 GI Bill provide outstanding educational opportunities to 
veterans, not all veterans undertake a path of higher education after 
their military service. According to the Department of Veterans 
Affairs, of those eligible for the Post-9/11 GI Bill, 41 percent have 
not used any of their benefits. Of those eligible for the Montgomery GI 
Bill, about 30 percent have not used any of their benefits. Even larger 
numbers of veterans have used some benefits, but have not completed a 
degree.
    Many of my own constituents have informed me that they would like 
to see greater entrepreneurial opportunities available to them as a way 
of augmenting traditional educational opportunities. In addition, as 
you know from recent hearings, unemployment figures for our Nation's 
newest veterans are troubling, with 21.6 percent of 18 to 24 year old 
male veterans from the Post 9/11 era unemployed in 2009.
    Many of our veterans possess the drive and skills to become 
successful entrepreneurs, but simply lack adequate capital to get 
started. They've learned important, marketable skills during their time 
in service and often want to use their acquired expertise as a 
springboard to small business ownership.
    To address these issues, I introduced H.R. 114, the Veterans 
Entrepreneurial Transition Business Benefit Act of 2009. This 
legislation would permit veterans eligible for assistance under the 
Montgomery GI Bill to elect to use their benefits to establish and 
operate a business that they will own as a primary source of income.
    Allowing veterans to use their educational benefits as capital to 
start a business, combined with the exceptional counseling and training 
programs for veterans in small business that already exist with the 
Department of Veterans Affairs and the Small Business Administration, 
would propel many veterans toward economic independence.
    My bill is deliberately brief in order to allow the Secretary 
operational flexibility in implementing and managing the program.
    I believe this bill is another step toward increasing the diversity 
of opportunities for veterans to use their earned benefits while 
strengthening the small business economy, creating jobs, and 
encouraging innovation.
    Thank you again for the opportunity to testify, and I look forward 
to working with you.

                                 <F-dash>
 Prepared Statement of Richard Daley, Associate Legislation Director, 
                     Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to express our views on the various bills that 
this Subcommittee will consider. As the conflicts in Iraq and 
Afghanistan continue, many of these veterans as well as veterans from 
the past seek help from the Nation that they served. PVA appreciates 
the hard work and sincere effort that this Subcommittee applies to 
their work with new legislation for programs to help these veterans.
 H.R. 114, the ``Veterans Entrepreneurial Transition Business Benefit 
                                 Act''
    Paralyzed Veterans of America supports H.R. 114, the ``Veterans 
Entrepreneurial Transition Business Benefit Act.'' This bill will allow 
a veteran who is eligible to receive financial educational assistance 
under the GI Bill for the 21st Century to use this financial assistance 
to establish and operate a business that the veteran will own and 
operate as their primary source of income. Although funding for 
educational assistance is not equal to the funding required to buy or 
start a small business, this would be a great asset for the veteran 
that plans to pursue a career operating their own business. Even with 
this small financial assistance from this VA program, major 
requirements still exist for additional funding, knowledge of effective 
business procedures, and often a willingness to work 7 days a week 
during the early years of a new business. If a veteran chooses this 
path for employment in the civilian world, Congress should support 
their effort and allow the funds earned for college courses to be used 
to help secure the future of the veteran.

                               H.R. 3685

    PVA supports H.R. 3685. Having readily available information 
pertaining to employment opportunities on the Internet is essential for 
veterans seeking employment in the 21st Century. The internet may be 
the most valuable tool for veterans who are continuing their education 
or looking for employment. A hyperlink with a dropdown menu Veterans 
Employment would present other important links such as VetSuccess, USA 
Jobs, and Job Central Web sites. This should include as defined in the 
bill, any other appropriate employment Internet Web sites as determined 
by the Secretary and the Department of Labor, Veterans Employment and 
Training Service. We often hear of the difficulty veterans face when 
trying to navigate the vast array of information available to the 
unemployed veteran. This addition will ease their search by placing 
these important links on the main page of the Web site of the 
Department of Veterans Affairs.

 H.R. 4319, the ``Specially Adapted Housing Assistance Enhancement Act 
                               of 2009''

    PVA strongly supports enhancing the existing programs that are 
intended to relieve some of the problems that a veteran faces when 
returning to civilian life after a severe injury and loss of mobility. 
This bill will allow a veteran that qualifies for the Specially Adapted 
Housing (SAH) grant to also use the Temporary Residence Adaptation 
(TRA) grant without reducing the full benefit amount of the SAH grant. 
In a recent GAO report (GAO-09-637R) it was discovered that eligible 
veterans were not using the Temporary Residence Adaptation grant 
because of the fact that it eroded the total amount that would be 
available when they decide to use the SAH grant for their permanent 
residence. We know from recent hearings of this Subcommittee that the 
current total of the SAH grant is by itself inadequate to accommodate 
the home modifications needed for some disabled veterans.
    This legislation will help remove a significant disincentive to use 
the TRA grant. PVA does have concerns with this change being a pilot 
for FY 2011. It should be made permanent. In future years beyond 2012 
some veterans will still require temporary grants to accommodate their 
living situations. As written this legislation will create a real 
inequity between veterans using TRA grants.
    This bill would also change the qualifying criteria to receive the 
grant. We support this change since it will benefit veterans that may 
be severely disabled, have mobility problems but not fit the current 
criteria.

     H.R. 4635, the ``Foreclosure Mandatory Mediation Act of 2010''

    PVA supports H.R. 4635, the ``Foreclosure Mandatory Mediation Act 
of 2010.'' This legislation would require lenders of home loans with 
Federal guarantees or Federal insurance, including VA home loans, to 
agree to engage in actions including loan modification, pre-foreclosure 
sale, deed in lieu of foreclosure, and support for borrower housing 
counseling. This mandatory mediation requirement will be helpful to the 
veteran and active duty servicemember, who has been delinquent on their 
home mortgage payments. Often this delinquency is the result of an 
overseas deployment or other military obligations that have created 
unforeseen economic problems for the borrower. Offering this assistance 
to help with successful navigation of a home loan will be beneficial 
for those who have served this Nation.

                               H.R. 4664

    H.R. 4664, this legislation would amend the Servicemembers Civil 
Relief Act to provide for a 1-year moratorium on the sale, foreclosure, 
or seizure of property owned by surviving spouses of servicemembers 
killed in Operation Iraqi Freedom or Operation Enduring Freedom. PVA 
supports this legislation that will provide the necessary time for a 
family to reevaluate their financial situation after the loss of a 
spouse who dies while serving in combat.

                               H.R. 4765

    PVA supports H.R. 4765, legislation that would authorize 
individuals who are pursuing programs of rehabilitation, education, or 
training under laws administered by the VA to receive a work-study 
allowance for performing certain support activities provided through 
congressional offices. Allowing a veteran to perform certain functions 
and observe the operations of a congressional office would be a 
valuable experience for the veteran and helpful for that Member.

           H.R. 5360, the ``Blinded Veterans Adaptive Housing
                       Improvement Act of 2010''

    PVA supports H.R. 5360, the ``Blinded Veterans Adaptive Housing 
Improvement Act of 2010.'' This legislation will change the definition 
used by the VA to determine the eligibly for the Housing Grant. This 
legislation would not create a new standard for the VA, or lessen 
current standards used among vision professionals. Using the new 
standard merely brings the VA in line with the industries standard to 
determine vision loss beyond the level of correction with lenses.

             The ``Veteran-Friendly Business Act of 2010''

    PVA supports the ``Veteran-Friendly Business Act of 2010.'' As this 
program is designed and introduced by the VA we encourage them to seek 
the cooperation of the Department of Labor, Veterans Employment and 
Training Service, Small Business Administration and the Chamber of 
Commerce. Unemployment amount veterans is not a problem to be addressed 
by any one agency, but a national problem that needs the cooperation of 
all parties that can influence America's businesses to hire veterans. 
We support this effort that will help communicate the message to ``Hire 
a Veteran.''
    Chairwoman Herseth Sandlin, Ranking Member Boozman, that concludes 
my testimony, I will be available for questions.

                                 <F-dash>
   Prepared Statement of Catherine A. Trombley, Assistant Director, 
             National Economic Commission, American Legion

                           EXECUTIVE SUMMARY
H.R. 3685:
    Vetsuccess.com and other veteran-friendly jobsites are already 
displayed on the VA's Web site. However, The American Legion believes 
these jobsites would be better utilized if they were more well-known, 
therefore we support allocating funds for the purpose of national 
advertising of VetSuccess.com.

H.R. 114, the ``Veterans Entrepreneurial Transition Business Benefit 
        Act''
    The American Legion has no position on this piece of legislation at 
this time.

H.R. 4319, the ``Specially Adapted Housing Assistance Enhancement Act 
        of 2009''
    The American Legion fully supports the ``Specially Adapted Housing 
Assistance Enhancement Act of 2009''. Veterans must have access to 
ramps and other modifications in their new temporary residences knowing 
that funds will still be available to adapt a more permanent residence 
when the time arises.

H.R. 4635, the ``Foreclosure Mandatory Mediation Act of 2010''
    The American Legion supports the ``Foreclosure Mandatory Mediation 
Act of 2010'' and any legislation that helps ensure a veteran has every 
opportunity to stay in his/her home during this economic downturn.

H.R. 4664: The American Legion has no position on this bill at this 
        time.

H.R. 4765:
    The American Legion is concerned about the possibility of veterans, 
who have not been accredited by the VA, giving benefit advice to other 
veterans. The American Legion supports this legislation; however, we 
would like the bill to include strict guidelines for work-study 
veterans not to give benefits advice.

H.R. 5360, Blinded Veterans Adaptive Housing Improvement Act of 2010
    The American Legion fully supports the ``Blinded Veterans Adaptive 
Housing Improvement Act of 2010,'' as we believe there are too many 
blinded veterans in need of adapted housing that are being ignored.
Draft Bill, Veteran-Friendly Business Act of 2010
    The American Legion fully supports this legislation since it 
highlights businesses that hire our veterans and keep them gainfully 
employed.

                               __________
    Chair Herseth Sandlin, Ranking Member Boozman and distinguished 
Members of the Subcommittee: Thank you for this opportunity to submit 
The American Legion's views on the issues being considered by the 
Subcommittee today. The American Legion commends the Subcommittee for 
holding a hearing to discuss these important and timely issues.
H.R. 3685:
    This bill requires the Department of Veterans Affairs (VA) to put a 
link on its Web site for VetSuccess.com and other job Web sites, 
especially those which encourage hiring veterans. It also mandates VA 
to run national ad campaigns to advertise VetSuccess. However, VA 
already has VetSuccess on its Web site. It also has links to 
Usajobs.gov, Indeed.com, and Monster.com, among others.
    The American Legion fully supports VA's mission to help veterans 
find meaningful careers. The administration has taken appropriate steps 
to help veterans by adding these Web sites to its Web site. Yet, we 
note there are some issues that need to be resolved. While VetSuccess 
is easily found, one would have to know what VetSuccess is in order to 
find it useful. Further, only upon getting to VetSuccess did we find 
the other Web sites. These were easily found under jobs, but again 
required the veteran to know what VetSuccess was.
    We agree with the intent of this bill; however, we do not believe 
VA should be required by law to design its Web site a certain way. This 
bill requires VA to put all job-related sites in a drop down menu. This 
would essentially tie the agency's hands as technology develops. If in 
the future there is a more user-friendly way to design a Web site than 
a drop down menu, VA would be unable to change its design without new 
legislation. Therefore, we do not support this aspect of the 
legislation.
    The bill also calls for appropriated funds to be used for national 
advertising of VetSuccess. VA continues its outreach to veterans, and 
has increased outreach to OIF/OEF veterans; however it is critical to 
know what VetSuccess is in order to take advantage of its services. 
Therefore, The American Legion supports allocating funds to VA for the 
use of national advertising of VetSuccess.

H.R. 114, the ``Veterans Entrepreneurial Transition Business Benefit 
        Act''
    This legislation seeks to allow veterans eligible to receive 
financial educational assistance under the Montgomery GI Bill (Chapter 
30 of title 38, United States Code) to use, with the approval of the 
Secretary of Veterans Affairs, any of such financial assistance to 
establish and operate a business that the veteran will own and operate 
as the primary source of income for the veteran.
    The American Legion has no position on the Veterans Entrepreneurial 
Transition Business Benefit Act at this time.

H.R. 4319, the ``Specially Adapted Housing Assistance Enhancement Act 
        of 2009''
    H.R. 4319 requires that any grant for adapted housing made to a 
veteran who temporarily resides in a family member's dwelling not count 
against the lifetime cap for adapted housing grants paid to veterans.
    Currently, there are two VA grant programs available to qualifying 
veterans for the installation of wheel chair ramps, chair lifts, 
modifications to kitchens and bathrooms to homes for veterans who use 
wheelchairs, canes or braces or who are blind and suffer the loss or 
loss of use of one lower extremity: the paraplegic grant which has a 
lifetime cap of approximately $63,000 and the adapted housing grant 
which is capped at $12,756.
    The American Legion believes that with the increasing numbers of 
disabled veterans returning from Iraq and Afghanistan, the need for 
specially adapted housing is paramount. Today, disabled veterans have a 
higher unemployment rate than the normal civilian population. Hard 
economic times can force veterans to temporarily reside with friends or 
family. Further, periods of poor health can force the same 
circumstances. Still, veterans must have access to ramps and other 
modifications in their new temporary residences. The lack of handrails 
or ramps, for instance, may lead to falls and accidents which in turn 
would cost the VHA in health care and possibly the VBA with benefits.
    Veterans forced into these situations, for whatever reasons, should 
be assured they will have access to adaptive housing needs, regardless 
of whether they already used the grant on a previous home. In turn, if 
a veteran uses the adaptive housing grant on the temporary dwelling, 
he/she should be assured monies will be available to adapt his or her 
next dwelling. It is for these reasons and the rising costs of 
construction materials and services, The American Legion is pleased to 
support this pending legislation that would allow veterans to adapt the 
house they temporarily reside in without it counting towards their 
lifetime grant cap.

H.R. 4635, the ``Foreclosure Mandatory Mediation Act of 2010''
    This legislation mandates a lender conduct a one-time mediation 
with a veteran prior to foreclosing or proceeding to sheriff's sale at 
the lender's expense.
    According to the Mortgage Bankers Association, the delinquency rate 
for subprime loans stands at 30 percent, while only 5 percent of 
veterans have defaulted on their VA home loans. The prime loan 
delinquency rate is 7 percent, while FHA defaults stand at about 9 
percent. The data shows veterans with VA home loans are keeping their 
homes better than any other consumers with any other loan type.
    VA has a longstanding program of assisting veterans who encounter 
financial difficulty and have trouble making their mortgage payments. 
This program involves a partnership with the servicers of VA loans 
under which VA aggressively monitors the efforts of these servicers in 
assisting veterans with repayment plans, loan modifications and the 
granting of forbearance. VA often intervenes directly with the veteran 
to assure that he/she has the opportunity to take advantage of one of 
these options. When these options are not practical, servicers are 
required to consider alternatives to foreclosure, such as a deed in 
lieu of foreclosure or a short sale. Also, in 2008 VA finished the 
development of a leading edge information technology system known as 
the VA Loan Electronic Reporting Interface (VALERI) as well as a 
comprehensive change to the business processes and regulations involved 
in the servicing of VA loans. This has given VA an even greater 
opportunity to assure that veterans are given every reasonable chance 
to keep their homes during times of financial difficulty.
    The goal must always be for the veteran to remain in his or her 
home. The American Legion supports this legislation and believes it 
will only aid VA to assist veterans who have trouble making their 
mortgage payments.

H.R. 4664:
    This piece of legislation amends the Servicemembers Civil Relief 
Act to prohibit the sale, foreclosure or seizure of property owned by a 
surviving spouse of a servicemember killed on active duty in OIF/OEF 
during the 1 year period following the servicemember's death.
    The American Legion has no position on this bill at this time.

H.R. 4765:
    This bill seeks to amend Title 38 U.S.C., to authorize veterans who 
are enrolled in VA educational programs, and thus eligible for work 
study, to receive work study allowances for certain outreach services.
    These services include distributing information to members of the 
Armed Forces, veterans, and their dependents about the benefits and 
services administered by VA and other appropriate governmental and non-
governmental programs and to prepare and process papers and other 
documents, including documents to assist in the preparation and 
presentation of claims for benefits under 38 C.F.R.
    While The American Legion recognizes the opportunity presented for 
veterans to work in congressional offices, we have concerns about the 
type of outreach services they would provide; specifically, preparing 
and processing documents pertaining to claims for benefits. The 
American Legion notes that there would be ample opportunity for these 
work study veterans to give benefits advice in the course of their work 
study. In order to represent a veteran in a disability claim, a 
representative must be accredited by VA. Should a work-study veteran 
inadvertently give benefits advice without being accredited, no matter 
how well intentioned, that veteran would be liable.
    The American Legion supports this bill, since often there are not 
enough work-study positions available for students seeking work-study. 
However, The American Legion requests the legislation include strict 
guidelines to ensure work-study veterans do not put give benefits 
advice to veterans seeking help with their VA claims.

H.R. 5360, Blinded Veterans Adaptive Housing Improvement Act of 2010
    Presently, for blinded veterans to be eligible for a VA adapted 
housing grants they must have visual acuity of 5/200 or less. However, 
the currently accepted Federal standard for blindness is 20/200. This 
essentially means some veterans can be legally blind, but not qualify 
for adapted housing grants through VA. The lack of adapted housing can 
make a blind veteran's environment a danger. This legislation will 
update the VA visual acuity standard so that it is in line with the 
Federal standard for blindness and updates the eligibility standards of 
impaired range of vision to the Federal standard of 20 degrees or less.
    The American Legion wholeheartedly supports this legislation as we 
believe too many blinded veterans who need adapted housing are being 
ignored under current law.

Draft Bill, Veteran-Friendly Business Act of 2010
    This bill directs the Secretary of Veterans Affairs to establish an 
annual award program to recognize businesses for their contributions to 
veterans' employment.
    Veterans returning from Afghanistan, Iraq and other tours of duty 
do not always come back to a hero's welcome--at least from employers. 
The jobless rate for veterans between ages 18 to 24 was 21.1 percent in 
2009. Numerous national publications have reported veterans are having 
a more difficult time finding jobs due to physical and mental 
disabilities, multiple deployments and challenges with translating 
military skills in civilian workforce language.
    Because people like acknowledgement for the good work they do, The 
American Legion fully supports this legislation since it highlights 
businesses that hire our veterans and keep them gainfully employed.
    The American Legion appreciates the opportunity to comment on the 
bills being considered by the Subcommittee. I would be happy to answer 
any questions that you might have. Thank you.

                                 <F-dash>
Prepared Statement of Eric A. Hilleman, Director, National Legislative 
         Service, Veterans of Foreign Wars of the United States

    MADAM CHAIRWOMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, the VFW would like to 
thank this Committee for the opportunity to present our views on this 
today's pending legislation.

   H.R. 114--Veterans Entrepreneurial Transition Business Benefit Act

    This legislation seeks to allow a veteran to utilize Chapter 30 or 
Montgomery GI Bill (MGIB) benefits for business expenses, start up, 
and/or operation as determined by the Secretary of Veterans Affairs.
    The VFW opposes to this legislation. The intent of the GI Bill is 
to provide training and education. The GI Bill is a unique program 
where veterans may attend business school or take classes to strengthen 
their business aspirations. The purpose of the GI Bill is to provide 
education, training, and the skills to help veterans succeed, not to 
provide start up money. The Small Business Administration (SBA) has 
programs, which address the specific needs of business start-ups.
    The VFW opposes this shift in the use of MGIB as VA has not 
historically managed business programs, and this may result in 
duplicative efforts between VA and SBA. The SBA in association with the 
VA established the Center for Veterans Enterprise (CVE), which extends 
services to veterans who own or who want to start small businesses. It 
helps Federal contracting offices identify these businesses and 
provides potential contracting and subcontracting opportunities. The 
CVE also works with Veterans Business Development Centers nationwide to 
help veterans with business financing, management, bonding, and 
technical support. Further, the SBA provides opportunities for small 
grants and loan guarantees to help veterans start and grow their 
business. Any veteran wishing to venture into entrepreneurship should 
be referred to these organizations and opportunities, not the VA. The 
VFW supports improving these services wherever possible.

H.R. 3685--a bill to require the Secretary of Veterans Affairs to 
        include on the main page of the Internet Web site of the 
        Department of Veterans Affairs a hyperlink to the VetSuccess 
        Internet Web site and to publicize such Internet Web site.

    This legislation seeks to regulate VA's Web site by mandating that 
a link for the VetSuccess page be accessible from VA's homepage under a 
unique subheading entitled, ``Veterans Employment.'' This bill would 
also promote veterans employment tools through the use of 
advertisements and outreach. Currently, VetSucess is accessible through 
a dropdown menu on VA's homepage. While the VFW strongly supports all 
efforts to improve, outreach and promote veterans employment.
    We cannot support this bill because its mandate is too constrictive 
on the display of information on VA's Web site. VA must present a vast 
number of programs and services to all visitors to the VA Web site in 
the most clean and efficient manner. Legislating specific menus, 
headings, or access points could have the effect of limiting VA from 
promoting other programs or services that are just as valuable to its 
visitors.

H.R. 4319--Specially Adapted Housing Assistance Enhancement Act of 2009
    The VFW supports this legislation to create a pilot program in 
Fiscal Year 2011 to provide financial assistance for disabled veterans 
to adapt the house of a family member they are temporarily residing in, 
and not have that dollar amount count against any assistance they are 
eligible to receive to build or buy and modify their own home. 
According to a June 2009 Government Accountability Office report, only 
nine veterans have taken advantage of the temporary residence 
adaptation grants. The report listed the fact that these grants count 
against the money received for building their own home as one of the 
reasons the grant was applied for so infrequently. H.R. 4319 will help 
disabled veterans modify a family member's home without penalty. This 
bill could be a significant step toward improving the quality of life 
for disabled veterans, which is a legislative improvement the VFW will 
always support.

H.R. 4635--Foreclosure Mandatory Mediation Act of 2010
    This bill amends the Helping Families Save Their Homes Act of 2009 
to require the mortgagee, mortgagor, and a housing counseling agency to 
provide mediation as a prerequisite to a foreclosure proceeding or a 
sheriff sale. This bill would impact the entire housing industry, help 
numerous Americans facing foreclosure, and is not exclusive for 
veterans or Veterans Affairs. H.R. 4635 has the potential to save 
veteran's home; the VFW supports this legislation.

H.R. 4664--a bill to amend the Servicemembers Civil Relief Act to 
        provide for a 1-year moratorium on the sale or foreclosure of 
        property owned by surviving spouses of servicemembers killed in 
        Operation Iraqi Freedom or Operation Enduring Freedom.
    Under the Servicemembers Civil Relief Act, servicemembers are 
exempt from foreclosure or seizure of property for a period of 9 months 
following their return from deployment. This legislation would extend 
this same protection, to a surviving spouse of a deceased servicemember 
supporting OIF/OEF. This bill would also extend the period of 
protection for survivors from 9 months to 1 year.
    The VFW is proud to support this legislation, which would help 
provide some relief and peace of mind to survivors dealing with the 
financial and emotional aftermath associated with the servicemembers 
death.

H.R. 4765--a bill to amend Title 38, United States Code, to authorize 
        individuals who are pursuing programs of rehabilitation, 
        education, or training under laws administered by the Secretary 
        of Veterans Affairs to receive work-study allowances for 
        certain outreach services provided through congressional 
        offices, and for other purposes.
    We support amending Title 38, United States Code, to authorize 
individuals who are pursuing programs of rehabilitation, education, or 
training under laws administered by the Secretary of Veterans Affairs 
to receive work-study allowances for certain outreach services provided 
through congressional offices, and for other purposes.
    As this Subcommittee is well aware, the sunset date of the work-
study pilot, authorizing work study for outreach/domiciliary care/
cemeteries, is fast approaching on June 30, 2010. Currently, this 
extension is tied up in the benefits bill (H.R. 1037) that has yet to 
be completed from last year. The VFW would like to stress the 
importance of work-study programs in the offices that rely on these 
talented veterans, and attest to the education and professional 
development each veteran gains by participating in this program. We 
look forward to continuing to work with both the House and Senate 
Veterans Affairs Committees to address this legislation and ensure 
these veterans continue to have the opportunity to develop 
professionally while in college.

H.R. 5360--Blinded Veterans Adaptive Housing Improvement Act 2010
    This legislation expands eligible ocular injuries for compensation 
under Title 38, Section 2101 (b)(2)(A). It changes a ``5/200 eyesight 
or less'' to ``20/200 eyesight or less, or a peripheral field of 20 
degrees or less.'' 20/200 eyesight is better than 5/200 eyesight, 
resulting in greater compensation for individuals with 20/200 vision.
    The top number represents the distance in feet from an object to 
discern the nature of the object. Also, peripheral field describes the 
area viewed outside of the direct line of sight; 20 percent means only 
1/5th of a persons' peripheral vision is clear. Hence, this legislation 
expands compensation to veterans with restricted peripheral vision as 
well.
    The VFW strongly supports this legislation.
Draft Bill--Veterans-Friendly Business Act of 2010
    The VFW strongly supports this legislation. This legislation, under 
the direction of the Secretary of Veterans Affairs, establishes an 
annual award program for businesses that dramatically contribute to 
veterans' employment. This bill will help raise awareness and stress 
the value of veterans in the American workplace. The VFW applauds 
businesses who lead in this field. They deserve due recognition to set 
the example for all employers.
    The VFW encourages Congress to consider adding the accolades of the 
Secretary of Labor to this award. In adding DOL, the government has the 
opportunity to elevate veterans' employment among the two agencies that 
are charged with addressing this issue. We feel employers would be 
further rewarded by the due recognition from both Secretaries.
    Thank you, this concludes our testimony. I would be happy to answer 
any questions this Committee may have.

                                 <F-dash>
 Prepared Statement of Thomas Zampieri, Ph.D., Director of Government 
                Relations, Blinded Veterans Association

INTRODUCTION
    Blinded Veterans Association (BVA) is the only congressionally 
chartered Veterans Service Organization exclusively dedicated to 
serving the needs of our Nation's blinded veterans and their families 
for 65 years. On behalf of BVA, thank you for this opportunity to 
present BVA's legislative concerns on the Department of Veterans 
Affairs (VA) Specially Adaptive Housing programs. Chairwoman Herseth-
Sandlin, Ranking Member Boozman, and Members of the Subcommittee on 
Economic Opportunity, thank you for the changes you already have made 
to these special adaptive housing grant programs in the past and we 
appreciate the introduction of H.R. 5360 ``Blinded Veterans Adaptive 
Housing Improvement Act of 2010.'' BVA does have concerns over the 
existing programs ability though to provide the amounts for adaptive 
housing construction costs necessary to meet the future needs of 
visually disabled veterans.
    VA screening TBI studies find that about 60 percent diagnosed with 
TBI have associated visual disorders of diplopia, convergence disorder, 
photophobia, ocular-motor dysfunction, and an inability to interpret 
print. Approximately 4 percent of those veterans with TBI injury result 
in legal blindness standard of 20/200 or less so they often meet legal 
standard of blindness. They have significant functional visual 
impairments, diagnosed as Post-Trauma Vision Syndrome (PTVS) from their 
TBI. They often enter VA Low Vision Optometry clinics and are 
prescribed wide variety of adaptive visual technology devices and they 
need additional electrical wiring in their homes for both the equipment 
and for increased lighting along with other home modifications. The 
problem has been that with the current 5/200 criteria those who are 
service connected for blindness at 20/200 or 20 degrees or less of 
peripheral vision do not meet the VBA standard in Section 2101 (b) (2) 
(A) for the SHA grant.
    If accessible housing grants are not sufficient to allow disabled 
veterans to live independently at home, the alternative high cost of 
institutional care in nursing homes will occur. The average private 
room charge for nursing home care was $212 daily, ($77,380 annual), and 
for semi-private $191 ($69,715) annually according to MetLife 2008 
Survey. Even assisted living centers charges of $3,031 month ($36,372) 
rose another 2 percent in 2008. BVA would point to these more costly 
alternatives than VA providing sufficient adaptive housing grants for a 
veteran to remain in their home functioning independently.
    BVA appreciated this Committee enacted Public Law 110-157 (H.R. 
797) to make similar change to the paired organ statute for blinded 
veterans who were service connected blind in one eye and then lost 
vision in their other remaining eye to make the standard 20/200 or 20 
degrees of visual field loss to remove the problem with the 5/200 
standard being used by VBA for rating the loss of vision. This one 
change impacted a small percentage of the total number of veterans who 
already receive VA service connection benefits for vision related 
conditions but have improved their quality of life by allowing for the 
benefits they needed when blinded in both eyes.

CURRENT SPECIALLY ADAPTED HOUSING SERVICES
    Special Home Adaptation Grant (SHA). The Special Home Adaptation 
(SHA) grant, on the other hand, helps service-connected veterans with 
specific mobility problems within the home. The SHA grant is for 
$12,756. The disability must be permanent and total due to:

    <bullet>  Blindness in both eyes with a 5/200 visual acuity or 
less, or
    <bullet>  Anatomical loss or loss of both hands and extremities 
below the elbow.

RECOMMENDATIONS
    The current SAH requirement from the Veterans' Housing Opportunity 
and Benefits Improvement Act of 2006 (P.L. 109-233), June 15, 2006 and 
previous laws used standard of blindness of 5/200 acuity and 
requirements of loss of use of both hands should be modified to 
permanent service connected blindness of 20/200 or less, or loss of 
peripheral visual fields to 20 degrees or less in H.R. 5380 and we urge 
passage of this bill this session of Congress. The current standards 
now for this restricts helping those returning OIF and OEF functionally 
blinded veterans and some TBI veterans with visual impairments 
requiring assistance and adaptive technology because they would never 
qualify for this current 5/200 standard leaving them with no grants.

Other Pending Legislation
    BVA is supportive of H.R. 3685 to provide internet Web site 
information for VetSuccess to assist veterans in finding links for job 
information. BVA also would support H.R. 4319 to provide for certain 
improvements in specially adapted housing assistance under Section 
2102A. BVA supports H.R. 4765 to authorize expansion of work study 
allowance to include certain outreach services provided through 
congressional offices for distribution of information to veterans and 
families on benefits and services. BVA has no resolutions regarding 
these following bills being considered today--H.R. 114, H.R. 4664, H.R. 
4635--and therefore can not make recommendations on these bills.

CONCLUSION
    Chairwoman Herseth-Sandlin and Ranking Member Boozman, BVA again 
expresses our thanks for the recent changes that the VA Committee has 
made to these various grant programs in the past couple of years. Those 
severely disabled from all previous wars accessing the adaptive housing 
grants programs necessary to live independently in their own homes must 
have adequate grants to meet the costs of renovations. BVA appreciated 
the opportunity to testify today and I will be glad to answer any 
questions now.

                                 <F-dash>
  Prepared Statement of Michael R. Duenas, O.D., Associate Director, 
      Health Sciences and Policy, American Optometric Association
                           Executive Summary

    The American Optometric Association (AOA), with more than 36,000 
members in 6,500 communities across the Nation, remains committed to 
serving America's veterans, including those blinded and vision 
disabled. Today, thousands of highly trained doctors of optometry now 
provide a critical array of high quality care, prevention, treatment 
and rehabilitation options to our veterans through Department of 
Veterans Affairs (VA) service and affiliations in the field and at 
hundreds of in-patient and out-patient facilities across the Nation and 
throughout the world.

    Today, the AOA is appreciative for the opportunity to provide 
testimony and we applaud the introduction of The Blinded Veterans 
Adapted Housing Improvement Act of 2010 (HR 5360). We believe that this 
important effort would provide a much needed update to Special Housing 
Adaptations (SHA) grant requirements by applying an appropriate 
standard of visual acuity for eligibility. The standard currently 
applied to SHA requirements is four-times the known and documented 
standard for recognizing blindness. We believe that this definition can 
and must be fixed.
    Currently, the law governing SHA requirements states that disabled 
veterans or servicemembers would be entitled to compensation for 
permanent and total service-connected disability due to blindness in 
both eyes with a 5/200 visual acuity or less, or the anatomical loss or 
loss of use of both hands, or the permanent and total disability due to 
a severe burn injury. However, AOA believes that the requirement of 5/
200 visual acuity or less is excessive and not in-line with recognized 
standards, which typically identifies blindness as 20/200.
    AOA fully supports the changes proposed by The Blinded Veterans 
Adapted Housing Improvement Act of 2010, which would modify the extreme 
5/200 visual acuity or less requirement to 20/200 visual acuity or 
less, the recognized standard. AOA would further recommend that the 
language also recognize the use of a standard correcting lens. AOA 
believes that the word ``standard'' should be inserted before 
``correcting lens'' in order to create an important allowance for the 
use of rehabilitative low vision adaptive medical devices (e.g. 
specialty or non-standard correction) without cause for veteran 
discrimination of the important benefits afforded by this legislation.
    The AOA knows that veterans seriously disabled during their service 
to our country have earned the SHA benefit and the updates sought would 
help ensure that worthy veterans receive this important assistance on 
behalf of a grateful Nation. We fully support the changes proposed by 
The Blinded Veterans Adapted Housing Improvement Act of 2010 and look 
forward to working with Congress to pass this legislation and provide 
needed assistance to our disabled veterans.

Introduction
    The American Optometric Association (AOA) appreciates the 
opportunity to provide our views on the ``Blinded Veterans Adapted 
Housing Improvement Act of 2010 (HR 5360), which seeks to modify the 
standard of visual acuity eligibility for specially adapted housing 
assistance.'' We commend you, Chairwoman Herseth Sandlin, Ranking 
Member Boozman--an esteemed colleague, and Members of the Subcommittee, 
for the leadership and vision you have shown as you continue working to 
make certain that America fulfills her promise to all veterans, 
including ensuring full access to the vision and eye health care 
services they need and deserve.
    AOA optometrists remain committed to serving America's veterans. 
Many years ago, we proudly supported the creation of the Veterans 
Health Administration (VHA) Optometry Service. And, during the more-
than-a-quarter century since its inception, the Optometry Service has 
evolved into providing the majority of primary eye care and low vision 
rehabilitation services for our Nation's veterans. Today, thousands of 
highly trained doctors of optometry now provide a critical array of 
high quality care, prevention, treatment and rehabilitation to our 
veterans through Department of Veterans Affairs (VA) service and 
affiliations in the field and at hundreds of in-patient and out-patient 
facilities across the Nation and throughout the world.
    We thank this Subcommittee for the opportunity to provide testimony 
today and applaud the introduction of The Blinded Veterans Adapted 
Housing Improvement Act of 2010. We believe that this important effort 
would provide a much needed update to special home adaptations grant 
requirements by applying an appropriate standard of visual acuity for 
eligibility. The AOA knows that veterans seriously disabled during 
their service to our country have earned this benefit and the updates 
sought would help ensure that worthy veterans, including those blinded 
and vision disabled, receive this important assistance on behalf of a 
grateful Nation.

Special Home Adaptations
    Congress developed the Special Housing Adaptations (SHA) program to 
provide assistance to a growing number of American servicemembers 
injured on the field of battle during the most recent overseas 
operations, including thousands returning home with combat eye trauma 
and vision disorders. The program was also designed to address and 
provide a level of assistance and independence for an aging population 
of disabled veterans from previous wars and conflicts with aged-related 
physical impairments, including vision disorders and related diseases 
of the eye.
    Through these grants, certain veterans or servicemembers with 
specific service-connected disabling conditions are entitled to VA 
funding for purposes of adapting an existing dwelling to meet their 
specific needs. The SHA grant is generally used to assist veterans with 
mobility throughout their homes. An eligible veteran or servicemember 
may receive an SHA grant for the actual cost to adapt a house or for 
the appraised market value of necessary adapted features already in a 
house when it was purchased. Under this entitlement, a temporary grant 
(TRA) may also be available to veterans who are/will be temporarily 
residing in a home owned by a family member.
    Currently, the law states that disabled veterans or servicemembers 
would be entitled to compensation for permanent and total service-
connected disability due to blindness in both eyes with a 5/200 visual 
acuity or less, or the anatomical loss or loss of use of both hands, or 
the permanent and total disability due to a severe burn injury. 
Overall, the program has been highly successful among disabled veterans 
with the VA averaging about 1,000 adaptive housing grants applications 
per year. AOA also applauds this Committee and Congress for passing 
legislation in 2008 which removed the one-time use limit and now allows 
eligible veterans or servicemembers to use the benefit up to three 
times, so long as the total grant stays within the specified limits of 
the law.
    In the coming months and years, the AOA anticipates that even more 
of these grants and other like initiatives will be needed to assist 
severely injured soldiers as they attempt to adjust to life back at 
home and with a disability. AOA is thankful that with the advent of new 
and improved body armor that protects vital organs and the skull; many 
more servicemembers are surviving battlefield injuries. But troops' 
eyes and limbs remain particularly vulnerable to the blizzard of 
shrapnel from new and more damaging types of explosions and the data 
shows that many returning home are impacted with eye trauma or 
disorders affecting vision, including Traumatic Brain Injury (TBI).
    In fact, according to the DoD Global War on Terrorism Casualties 
Web site, from Oct. 7, 2001 to May 29, 2010 there have been 36,230 
Operation Iraqi Freedom (OIF) and 7,217 Operation Enduring Freedom 
(OEF) servicemembers wounded in action and this number continues to 
grow with the current battles in Afghanistan. With an ever aging 
veteran population from previous conflicts and a growing number of 
wounded returning home from recent overseas operations, this and other 
programs will be critical to providing freedom and independence at home 
for America's veterans while cutting overall health care costs. If 
disabled veterans are not able to make adaptive changes to their homes, 
they run the risk of falls and injuries that result in expensive 
emergency room and costly hospital admissions.

Recommendations
    The AOA applauds the creation and Congress' ongoing and increasing 
support for the Special Housing Adaptations grant program. We believe 
this and other like programs provide a vital link for our wounded 
warriors and help them gain some sense of normalcy as they adjust to 
civilian life and a new disability. However, AOA is concerned that the 
currently used requirement that a veteran must have a service-connected 
disability due to blindness in both eyes with a 5/200 visual acuity or 
less, is not in-line with recognized standards and, as a result, is 
denying severely injured veterans an earned benefit and needed 
assistance. In fact, a 5/200 visual acuity or less requires veterans' 
visual status to be four-times worse than that of most other recognized 
definitions of blindness.
    Congress has already established a precedent for improving 
veterans' law when it updated the definition of blindness as it relates 
to low-vision matters. Congress made an important change to Title 38, 
when it enacted a modification of the rate of visual impairment for 
payment of disability compensation by striking 5/200 and inserting 20/
200. Other Federal agencies, such as the Centers for Disease Control 
and Prevention, define blindness as follows:
    (42 U.S.C. Sec. 416(i)(1)(B) [T]he term ``blindness'' means central 
visual acuity of20/200 or less in the better eye with the use of a correcting lens. An eye which is accompanied by a limitation in the fields of vision such 
that the widest diameter of the visual field subtends an angle no 
greater than 20 degrees shall be considered for purposes in this 
paragraph as having a central visual acuity of 20/200 or less.
    AOA believes that the important differences including, 1) a visual 
acuity of 20/200 as opposed to a four-times worse requirement of 5/200 and 
2) the use of a qualifying statement, ``with the use of a correcting lens'' 
are both critical elements. The qualifier ``with the use of a 
correcting lens'', is necessary in order to disqualify veterans who 
would demonstrate this reduced level of vision simply due to standard 
uncorrected refractive error (e.g. uncorrected myopia, hyperopia or 
astigmatism) that could otherwise be corrected with a correcting lens.
    Therefore, the AOA recommends that the final language of The 
Veterans Adapted Housing Improvement Act of 2010 read: Section 
101(b)(2)(A) of title 38, United States Code, is amended by striking 
``5/200 visual acuity or less'' and inserting
``20/200 visual acuity or less, in the better eye with the use of a 
standard correcting lens. An eye which is accompanied by a limitation 
in the fields of vision such that the widest diameter of the visual 
field subtends an angle no greater than 20 degrees shall be considered 
for purposes in this paragraph as having a central visual acuity of 20/
200 or less''.
    The AOA believes that the word ``standard'' should be inserted 
before ``correcting lens'' in order to create an important allowance 
for the use of rehabilitative low vision adaptive medical devices (e.g. 
specialty or non-standard correction) without cause for veteran 
discrimination of the important benefits afforded by this legislation. 
In doing so, this action will bridge any barriers to vision 
rehabilitation that a servicemember may have because they do not want 
to use adaptive medical devices that may improve their vision, 
disqualifying them from important benefits afforded in this 
legislation. As a matter of fact, a word insertion of ``standard'' will 
allow a veteran fit with low vision adaptive medical devices, the use 
of which may temporarily improve the visual function above these stated 
threshold levels of acuity or visual field, the important ability to 
access the benefits contained within the Blinded Veterans Adapted 
Housing Improvement Act of 2010.
    Furthermore, the AOA would like to bring to your attention data 
that further supports the Blinded Veterans Adapted Housing Improvement 
Act of 2010.
    Visual impairment is strongly associated with falls and hip 
fractures.<SUP>1234</SUP> This can be due to a number of associated 
vision and eye health problems, including poor visual acuity, reduced 
visual field, impaired contrast sensitivity and cataract.\2\ In the 
Blue Mountain Eye Study both impaired vision and reduced visual field 
were found to double the risk of falls. For those aged 75 or older, 
moderate visual impairment was associated with a nine-fold increase in 
risk of hip fracture during the subsequent 2 years.\2\ As such, we 
believe that the Blinded Veterans Adapted Housing Improvement Act of 
2010 may serve to reduce health care costs of our veterans.
---------------------------------------------------------------------------
    \1\  Abdelhafiz, A.H. and Austin, C.A Visual factors should be 
assessed in older people presenting with falls or hip fracture Age and 
Ageing, 32, 26-30, 2003.
    \2\  Ivers RQ, Cumming RG, Mitchell P et al. Visual impairment and 
falls in older adults: the Blue Mountains Eye Study. J. Amer Ger. Soc. 
46(1): 58-64, 1998.
    \3\  Cummings SR. Treatable and untreatable risk factors for hip 
fracture. Bone 18(3 suppl): 165S-167S, 1996.
    \4\  Jack DI, Smith T, Neoh C et al. Prevalence of low vision in 
elderly patients admitted to an acute geriatric unit in Liverpool: 
elderly people who fall are more likely to have low vision Gerontology, 
41, 280-5, 1995.
---------------------------------------------------------------------------
Conclusion
    In conclusion, the AOA applauds the important work of this 
Subcommittee in crafting the Blinded Veterans Adapted Housing 
Improvement Act of 2010 and will remain available for any additional 
advice or consultation that may become necessary through your 
deliberations. Again, we commend you, Chairwoman Herseth Sandlin, 
Ranking Member Boozman, and Members of the Subcommittee, for the 
leadership and vision you have shown as you continue working to make 
certain that America fulfills her promise to all veterans, including 
ensuring full access to the vision and eye health care services they 
need and deserve. The AOA and doctors of optometry around the country 
remain committed to serving America's wounded warriors and we look 
forward to working with this Committee now and in the future to help 
ensure that veterans seriously disabled during their service to our 
country, including those blinded and vision disabled, receive every 
benefit and any assistance they may need on behalf of a grateful 
Nation.

                                 <F-dash>
    Prepared Statement of Thomas J. Pamperin, Associate Deputy Under
     Secretary for Policy and Program Management, Veterans Benefits
          Administration, U.S. Department of Veterans Affairs

    Good afternoon, Madam Chairwoman, Ranking Member Boozman, and other 
Members of the Subcommittee. I am pleased to be here to provide the 
Department of Veterans Affairs (VA's) views on pending legislation 
affecting a number of our programs. Joining me today are John Brizzi, 
Deputy Assistant General Counsel, and Joseph Simpson, also from the 
Office of the General Counsel.

                           HOUSING PROPOSALS

H.R. 5360
    Madam Chairwoman, your bill, the ``Blinded Veterans Housing 
Improvement Act of 2010,'' would amend section 2101(b)(2)(A) of title 
38, United States Code, to expand Specially Adapted Housing (SAH) 
eligibility for the visually impaired. Under current law, an individual 
is not eligible for what is commonly called a ``2101(b) grant'' unless 
his or her visual acuity is 5/200 or less. By establishing a qualifying 
degree of blindness at visual acuity of 20/200 best-corrected visual 
acuity or less, or as a field of vision of 20 degrees or less, your 
bill would make the 2101(b) grant available to a wider range of 
Veterans and Servicemembers.
    Provided Congress identifies appropriate and acceptable offsetting 
PAYGO cost savings, VA supports this legislation. Current eligibility 
requirements for 2101(b) grants based on visual impairment are 
exceptionally stringent in comparison to other areas of law. Many grant 
applicants who are considered legally blind by other commonly-held 
standards are ineligible for 2101(b) grants because their visual 
impairments, though profound, are not severe enough to meet the 
standard set under current law. For example, under the Social Security 
Administration's eligibility standards for supplemental security income 
(SSI), individuals are considered legally blind with visual acuity of 
20/200 or less, or a peripheral field of vision of 20 degrees or less. 
Additionally, VA's Servicemembers' Group Life Insurance Traumatic 
Injury Protection Program's eligibility standard related to visual 
acuity is ``20/200 or less.'' However, since the standard for 
``blindness'' for the 2101(b) grant is ``5/200 visual acuity or less,'' 
a Veteran or Servicemember who is legally blind for purposes of SSI or 
VA life insurance would not be eligible for a 2101(b) grant.
    We estimate that enactment of H.R. 5360 would result in benefits 
costs of $4.0 million during the first year, $14.2 million for 5 years, 
and $19.1 million over 10 years.

H.R. 4319
    H.R. 4319, the ``Specially Adapted Housing Assistance Enhancement 
Act of 2009,'' would adjust through fiscal year 2011 the aggregate 
amount of SAH assistance available to individuals residing temporarily 
with family members. It also would add a new section to chapter 21 of 
title 38, United States Code, to define the term ``loss of use.'' 
Although VA supports the adjustment to the Temporary Residential 
Adaptation (TRA) grant, VA cannot support the bill as drafted.
    The TRA grant, authorized in 38 U.S.C. 2102A, is available to 
eligible individuals who reside temporarily with family members, and is 
counted both as a grant use and as a reduction in the total amount of 
SAH assistance available. Currently, an eligible individual may receive 
up to three grants of assistance under the chapter, not to exceed the 
applicable maximum aggregate amount of assistance. Section 2 of the 
bill would authorize the Secretary to disregard a TRA grant when 
calculating the maximum dollar amount available under chapter 21. Thus 
far, there has been limited usage of TRA grants. Section 2 of the bill 
may increase usage of this program because an individual could obtain 
the short-term adaptations he or she needs immediately, with less worry 
about whether funds would later be available for permanent living 
arrangements.
    Section 3 of the bill would add a new section 2100 to chapter 21 of 
title 38, United States Code, to define the term ``loss of use''. For 
purposes of the chapter, ``loss of use'' would mean, ``any loss of use 
for which the individual is entitled to receive compensation under 
chapter 11 of [title 38].'' Currently under 38 U.S.C. Sec. 2101, an 
individual may only receive SAH assistance if his or her injuries are 
permanent and total and service-connected and if they meet the specific 
criteria identified. Because the provision in section 3 would not 
change those requirements, it is not clear how VA would apply the new 
definition of ``loss of use,'' or whom it would benefit.
    The following illustration might help clarify the point: Chapter 21 
authorizes two types of grants--one currently offering $63,780 in 
assistance and the other $12,756. When a Veteran receives a permanent 
and total service-connected disability rating due to the loss of use of 
both upper extremities, 38 U.S.C. Sec. 2101(a)(2)(D) further requires 
the Secretary to determine whether the loss of use is at or above the 
elbows. If the Secretary so determines, the Veteran is medically 
eligible for the larger grant; if not, the Veteran is eligible only for 
the smaller grant. The definition proposed in section 3 of the bill 
would make no difference in the type of assistance a Veteran would 
receive under chapter 21 because it would not change the general 
requirements that injuries be total and permanent and service-
connected, and it would not change the criteria of qualifying injuries 
already specified in the statute.
    Without a clear understanding of the intent of section 3 of the 
bill, VA is unable to estimate the cost of enacting the proposal. Upon 
clarification, VA will provide a cost estimate for the record.
    In view of our uncertainty about the impact of the amendment 
proposed in section 3 and about any PAYGO costs that the bill would 
impose, we are unable to support the bill as drafted. We would be 
pleased to work with the Subcommittee staff in resolving this concern.

H.R. 4635
    H.R. 4635, the ``Foreclosure Mandatory Mediation Act of 2010,'' 
would require qualified mortgagees, including lenders who hold 
federally-guaranteed or federally- insured loans, to consent to 
mandatory mediation before proceeding with a foreclosure. The qualified 
mortgagee would be required to ``conduct, consistent with any 
applicable State or local requirements, a one-time mediation with the 
affected mortgagor and a housing counseling agency, at the expense of 
the qualified mortgagee.''
    The bill does not explain what it means for a mortgagee to 
``conduct'' a mediation with a mortgagor and a housing counseling 
agency. Mediation is generally conducted by an impartial third-party 
who assists each of the mediating parties, without favoring the 
interests of one over another. This means that participants and their 
advocates, including certain housing counselors, might not be best 
suited for facilitating the mediation proceedings.
    The bill text is also unclear as to what expenses a qualified 
mortgagee must pay in connection with the mediation. For instance, 
expenses are not expressly limited to the charges of a non-profit 
mediator for a half-day's services. It could be argued that, as 
drafted, the bill would require a qualified mortgagee to pay for the 
services of a for-profit mediator, along with accommodations and meals 
for the affected mortgagor and housing counseling agency 
representative.
    Furthermore, we do not fully understand the intent of the 
requirement that the mediation be conducted ``consistent with any 
applicable State or local housing requirements.'' Such State or local 
requirements are typically part of the State foreclosure law or, in 
some cases, local judicial procedural requirements. VA is uncertain 
whether the absence of a State or local requirement would mean that 
mediation is not necessary, or whether it implies a Federal requirement 
would still compel mediation.
    Finally, it is unclear whether the requirement to mediate is based 
on the status of the qualified mortgagee or if it is based on the type 
of loan the lender intends to foreclose. One possible understanding is 
that, if a mortgagee holds one federally-guaranteed loan in its 
portfolio, it would be required to mediate before foreclosing any loan, 
regardless of whether the loan to be foreclosed is federally 
guaranteed. Another interpretation is that the bill would only require 
mediation when a loan is of the type expressly categorized. In other 
words, a qualified mortgagee would be required to mediate before 
foreclosing a VA-guaranteed loan but not a conventional loan.
    Accordingly, we are unable to support this bill as drafted.
    Without a clear understanding of the intent of the bill, we are 
unable to estimate the cost of enacting the proposal. Upon 
clarification, we will provide a cost estimate for the record.

H.R. 4664
    H.R. 4664 would amend the Servicemembers Civil Relief Act to 
provide for a 1-year moratorium on the sale or foreclosure of property 
owned by surviving spouses of Servicemembers killed in Operation Iraqi 
Freedom or Operation Enduring Freedom. VA respectfully defers to the 
Department of Defense regarding the merits of this proposal.
    VA is unable to estimate the cost of the proposal, as it will 
depend upon interpretation of the eligibility criteria by the 
Department of Defense.

                          EDUCATION PROPOSALS

H.R. 114
    H.R. 114, the ``Veterans Entrepreneurial Transition Business 
Benefit Act,'' would authorize a Veteran who is eligible to receive 
financial educational assistance under the chapter 30 Montgomery GI 
Bill to elect to use that benefit, with the approval of VA, to 
establish, own, and operate a business as his or her primary source of 
income. The measure also would require VA to promulgate regulations to 
(1) make sure such financial educational assistance would be used for 
the purpose for which it was approved; (2) establish application 
procedures requiring appropriate business planning; and (3) require 
periodic reporting during the provision of such assistance.
    While VA strongly supports assisting in, and advocating for, 
Veterans' opportunities in the areas of small business and self-
employment, VA cannot support the bill as drafted. VA believes GI Bill 
education benefits should be preserved and the program administered as 
currently established. It is difficult to understand how the 
``entrepreneurial transition business benefit'' is logically related to 
educational assistance, and how eligibility for a specific educational 
program would be an appropriate indicator of entrepreneurship. The 
Small Business Administration (SBA) may be better suited to develop the 
business plans and provide the self-employment support contemplated by 
H.R. 114. VA also notes the bill provides no guidance as to how VA 
would determine the particular amount of educational assistance an 
individual could receive or how VA would otherwise implement its 
provisions. We would be pleased to work with the Subcommittee staff and 
SBA to identify a suitable alternative to provide educational 
assistance for Veterans who seek self-employment opportunity.
    Although we believe the fiscal impact of this legislation on VA 
would likely be minimal, we lack the data necessary to a determination 
of the expected caseload. Because of this, we are unable to provide an 
estimate of the cost of enactment of this provision.

H.R. 4765
    H.R. 4765 would amend 38 U.S.C. Sec. 3485(a)(4) to authorize 
individuals who are pursuing programs of rehabilitation, education, or 
training under chapters 30, 31, 32, 33, or 34 of title 38, United 
States Code, or chapters 1606 or 1607 of title 10, United States Code, 
to receive work-study allowances for certain activities conducted at 
the offices of Members of Congress. These work-study participants would 
distribute information concerning VA benefits and services, as well as 
other appropriate governmental and non-governmental programs, to 
members of the Armed Forces, Veterans, and their dependents. In 
addition, the work-study participants would prepare and process papers 
and other documents, including documents to assist in the preparation 
and presentation of claims for VA benefits.
    VA has no objection to the enactment of H.R. 4765, subject to the 
identification of appropriate and acceptable PAYGO offsets for any 
resulting additional costs. We have no objection to work-study 
participants participating in, and promoting, the outreach activities 
and services contemplated by the bill. We also have no objection to 
work study participants assisting in the preparation and processing of 
papers and other documents,'' ``including documents to assist in the 
preparation and presentation of claims for VA benefits'' (emphasis 
added) under proposed new section 3485(a)(4)(G)(ii). We note that work-
study participants would be subject to the 38 U.S.C. chapter 59 
limitations on representing claimants for VA benefits.
    VA estimates that the enactment of H.R. 4765 would result in a 
benefits cost of at least $727,000 during the first year, $3.6 million 
over a 5-year period, and $7.3 million over 10 years.

                            OTHER PROPOSALS

H.R. 3685
    H.R. 3685 would require VA's main page of its Internet Web site to 
include a hyperlink with a drop-down menu, with direct access to the 
VetSuccess Internet Web site, the USA Jobs Internet Web site, the Job 
Central Web site, and other employment Web sites that focus on jobs for 
Veterans. It would also require the Secretary to promote awareness of 
the VetSuccess Internet Web site by advertising in national media and 
to inform Veterans of Operation Iraqi Freedom and Operation Enduring 
Freedom of the VetSuccess Internet Web site through outreach efforts.
    VA supports efforts to increase Veterans' awareness of the 
VetSuccess.gov Web site and to promote opportunities for employment of 
Veterans through links to appropriate resources. Although we believe we 
are currently accomplishing the purpose of this legislation, we do not 
object to its enactment. VA's Vocational Rehabilitation and Employment 
(VR&E) program currently conducts outreach to OEF/OIF Veterans through 
their Coming Home To Work (CHTW) initiative and through other avenues 
such as Disabled Transition Assistance Program (DTAP) presentations. 
VR&E informs Veterans of the VetSuccess.gov Web site through CHTW and 
by other means, including DTAP presentations and the distribution of 
QuickBooks.
    One-time costs associated with advertising in national media 
outlets are estimated to be $900,000 during the first year. To conduct 
a recent media campaign, VA's Education Service spent approximately 
$380,000 on developing concepts and materials, identifying and 
targeting appropriate markets, and developing a marketing plan. An 
additional $520,000 was spent on implementation of the marketing plan. 
Implementation included advertising on radio, social media sites 
including Facebook and MySpace, Internet sites including Google and 
Yahoo, print outlets and text messaging services. VA would expect to 
incur similar costs to conduct a media campaign to advertise the 
VetSuccess.gov Web site.
    No additional costs are related to conducting outreach to OEF/OIF 
Veterans to inform them of the VetSuccess.gov Web site because this is 
currently done by VR&E. No additional costs are associated with 
including hyperlinks on the VA main Internet page because VA has 
already budgeted for these types of minor changes.

H.R. [Draft bill, unnumbered]--The Veteran-Friendly Business Act of 
        2010
    The ``Veteran-Friendly Business Act of 2010,'' would require the 
Secretary to establish an award program, as well as a process for 
administering such program, that would recognize businesses for their 
contributions to Veterans' employment. The program must specify 
categories and sectors of businesses eligible for recognition each year 
and objective measures for selecting recipients of the award.
    VA supports this bill. A program of recognition for contributions 
to Veterans' employment is a worthwhile means of encouraging businesses 
to continue to employ Veterans. Businesses that contribute to Veterans' 
employment provide a valuable and meaningful service, allowing VA to 
excel with regard to its mission to help Veterans become employable and 
obtain and maintain suitable employment. This service deserves 
appropriate recognition. VA would recommend two categories, ``small 
businesses'' and ``other than small businesses,'' and three sectors, 
``non-profit,'' ``service,'' and ``manufacturing, farming and other,'' 
of recipients eligible to receive awards. A review board would be 
created to review nominations and select recipients. Recipients would 
receive trophies and runners-up would receive plaques.
    We estimate that enactment of this bill as contemplated would 
result in no significant costs. We estimate nominal costs associated 
with staff-days to review and select nominations, advertising, 
verification of winners, and purchasing trophies and plaques.

H.R. 3266
    H.R. 3266 would require VA and the Department of Defense (DoD) to 
jointly establish the ``Wounded Warrior K-9 Corps'' program, to award 
competitive grants to nonprofit organizations to assist such 
organizations in planning, designing, establishing, and operating 
programs to provide assistance dogs to covered members of the Armed 
Forces and Veterans, subject to the availability of appropriations 
provided for the program. Grant recipients would use the funding to 
carry out programs that provide assistance dogs to covered members and 
Veterans with certain disabilities, including blindness or visual 
impairment; loss of the use of a limb, paralysis, or other significant 
mobility issue; loss of hearing; traumatic brain injury; post-traumatic 
stress disorder; and any other disability that VA and DoD consider 
appropriate. Assistance dogs would be defined as dogs that are 
specifically trained to perform physical tasks to mitigate the effects 
of these disabilities, and would not include dogs specifically trained 
for comfort or personal defense.
    To be eligible for a grant, a nonprofit organization would be 
required to submit an application to VA and DoD in such manner, and 
containing such information, as VA and DoD may require. The application 
would include a proposal to evaluate the effectiveness of the 
activities carried out by the grant recipient (an evaluation would be 
required of each grant recipient), and a description of (1) the 
organization's training program, including training and aftercare 
services for the covered members and Veterans, as well as the dogs; (2) 
the plan for publicizing the availability of the dogs through a 
targeted-marking campaign to covered members and Veterans; (3) the 
recognized expertise of the organization in breeding and training such 
dogs, and the expertise of the organization with working with military 
medical treatment facilities, or VA medical facilities; and (4) the 
organization's commitment to standards comparable to the standards of 
the International Guide Dog Federation or Assistance Dogs 
International, and the organization's commitment to humane standards 
for animals. ``Covered'' members would include a member of the Armed 
Forces who (1) is receiving medical treatment, recuperation, or therapy 
under chapter 55 of title 10, United States Code; (2) is in a medical 
hold or medical holdover status; or (3) is covered under section 1202 
or 1205 of title 10, United States Code. ``Covered'' Veterans would 
include Veterans who are enrolled in VA's system of patient enrollment, 
established under section 1705(a) of title 38, United States Code. The 
bill would authorize the appropriation of $5 million for each of fiscal 
years 2010 through 2014.
    We are in the early stages of developing our own assistance dog 
program, so the full impact of the demand for service dogs may not have 
been realized so far. A recent report by the Office of Inspector 
General found that of 4 assistance dog agencies surveyed (out of 77 
Assistance Dog International member organizations), 124 dogs had been 
placed with Veterans. VA has no direct knowledge of any shortage in 
available dogs. Therefore, we recommend deferring action on this bill 
to allow the current program sufficient time to become fully 
operational and better ascertain future needs for this benefit.
    In addition to the appropriation of $5 million each fiscal year 
through 2014, VA estimates enactment of this proposal would result in 
additional administrative costs of $759,000 in the first year, $4.3 
million over 5 years, and $8.2 million over 10 years.
    Madam Chairwoman, this concludes my statement. I would be happy to 
respond to questions you or the other Members of the Subcommittee may 
have regarding our views, as presented.

                                 <F-dash>
Statement of Raymond C. Kelley, National Legislative Director, American 
                           Veterans (AMVETS)

    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, thank you for holding this hearing today and thank 
you for the opportunity to provide AMVETS' views regarding these key 
pieces of legislation.
    AMVETS does not support H.R. 114. All thought this is a creative 
way to assist veterans fund the establishment of a business, it will 
set a negative precedent for the use of veterans' benefits. Each 
benefit has an expressed intent and has a system of distributing their 
funds. Adding business development to chapter 30 would not only change 
the intent of the benefit it would change the roll VA would have to 
play in distributing funds and oversight of the use of funds by the 
recipient.
    AMVETS believes that VA should design their Web site to make it 
easier for veterans to find veteran employment opportunities and 
resources in one, easy to find location on the VA.gov homepage. 
Currently, VetSuccess information is located in the ``Veterans 
Services.'' This is easy to navigate to, but if a veteran does not know 
what this service provides they may skim past it. There is also a link 
to USAJobs on their homepage, so this might lead veterans to believe 
this is the only employment resource available from the Web site. 
AMVETS supports H.R. 3685. Providing an easily recognizable 
``Employment'' dropdown from the VA homepage that houses all employment 
opportunities for veterans will simplify and ensure that all veterans 
who visit the VA Web site will find all relevant employment 
information.
    AMVETS believes that every effort should be made to ensure that 
veterans who are in financial distress can keep their home. AMVETS 
supports H.R. 4635, prevent mortgagee from initiating foreclosure on 
financially distressed mortgagor without first arranging mediation in 
an attempt to keep the mortgagor in the home. Providing this 
intervention will drastically reduce the number of foreclosures by 
allowing the homeowner to negotiate a revised payment plan.
    The loss of a spouse places unimaginable physical, mental and 
financial stress on the survivors. Understanding this, it is important 
to ensure that additional stress isn't placed on them while they work 
through this abrupt and devastating event. AMVETS supports H.R. 4664, 
which will prevent surviving spouses from losing their home for 1 year 
after the combat death of their spouse and servicemember.
    AMVETS supports H.R. 5360. Federal statute defines legal blindness 
as:

        ``. . . central visual acuity of 20/200 or less in the better 
        eye with the use of a correcting lens. An eye which is 
        accompanied by a limitation in the fields of vision such that 
        the widest diameter of the visual field subtends an angle no 
        greater than 20 degrees shall be considered for purposes in 
        this paragraph as having a central visual acuity of 20/200 or 
        less.''

        42 U.S.C. Sec. 416(i)(1)(B) (Supp. IV 1986).[1]

    It is time to ensure veterans affected by visual impairment receive 
the benefits and assistance they have rightfully earned.
    Madam Chairwoman, thank you again for providing AMVETS the 
opportunity to present our views on these key pieces of legislation. 
This concludes my testimony and I will be happy to answer any questions 
you may have.

                                 <F-dash>
  Statement of Hon. Frank Kratovil, Jr., a Representative in Congress 
                       from the State of Maryland

    Chairman Herseth Sandlin, Ranking Member Boozman, and distinguished 
members of the Veterans Affairs Subcommittee on Economic Opportunity--
thank you for conducting this important hearing on legislation that 
will help honor our commitment to our Nation's veterans and the 
sacrifices they and their families make to keep our country safe.
    I am pleased the Subcommittee is considering legislation I have 
introduced, H.R. 4664, the ``Mortgage Foreclosure Moratorium for 
Surviving Spouses Act of 2010.''
    The housing crisis has significantly affected our military 
communities: in early 2008, foreclosure rates in military towns were 
increasing at four times the national average. We must take steps to 
ensure our military families do not face foreclosure, particularly when 
their servicemember makes the ultimate sacrifice.
    The Mortgage Foreclosure Moratorium for Surviving Spouses Act of 
2010 would expand the existing mortgage foreclosure protections that 
apply to servicemembers who return from combat duty to the surviving 
spouses of servicemembers who are killed in Iraq and Afghanistan. Rep. 
Perriello, a distinguished member of this Subcommittee, introduced H.R. 
3976, the Helping Heroes Keep Their Homes Act of 2009, which extended 
the expiring mortgage foreclosure moratorium for servicemembers. As a 
cosponsor of this legislation, I was pleased it passed the House on 
March 23, 2010. Once that legislation becomes law, servicemembers will 
be provided a 9-month foreclosure moratorium period upon returning from 
active duty, through 2015.
    H.R. 4664, the ``Mortgage Foreclosure Moratorium for Surviving 
Spouses Act of 2010,'' would extend this mortgage foreclosure 
protection to surviving spouses of service B members killed on active 
duty. It would prohibit the sale, foreclosure, or seizure of property 
owned by the surviving spouse of a servicemember killed on active duty 
in Operation Iraqi Freedom or Enduring Freedom during the 1-year period 
following the servicemember's death.
    Giving surviving spouses a protection against foreclosure in the 
immediate aftermath of the death of their loved one is the least we can 
do for families that have already given so much for their country.
    I'd like to share with you the story of Casey Werner of Amboy, 
Washington. While not a constituent of mine, Ms. Werner's plight 
underscores the need to pass H.R. 4664.
    Casey's husband, Sergeant Earl Warner, joined the Oregon National 
Guard the day after 9/11. Eight years later, during his third tour in 
Iraq, the 38-year old soldier was killed by a roadside bomb. Casey was 
left to fend for herself--on her $10/hr. income--and fight for the home 
she and her husband built together. Unable to secure a loan 
modification from her mortgage servicing company, she's missed payments 
and the home she built with her war-hero husband is about to go on the 
foreclosure auction block.
    This is unacceptable. Losing a loved one to war is a tragedy that 
should never be compounded by losing a home. When our servicemen and 
women make the ultimate sacrifice, we have the responsibility to look 
out for those they have left behind.
    Thank you for the opportunity to testify in support of H.R. 4664, 
the Mortgage Foreclosure Moratorium for Surviving Spouses Act of 2010. 
I urge the Committee to pass this important legislation and provide 
foreclosure protection to our military widows.

                                 <F-dash>
 Statement of Hon. Jerry Moran, a Representative in Congress from the 
                            State of Kansas

                           EXECUTIVE SUMMARY

    H.R. 4319, Specially Adapted Housing Assistance Enhancement Act, 
would amend the VA's Specially Adapted Housing (SAH) Grant Program in 2 
ways:

    1.  The bill would expand eligibility for adapted housing grants to 
veterans who have lost a limb and are further impeded from independent 
living by the limited use of a remaining arm or leg. Current law 
requires the complete loss or ``loss of use'' of more than one 
extremity to be eligible for adapted housing grants. However, many 
individuals with severely injured extremities retain a modicum of 
limited use of remaining limbs. Despite that residual use, such as 
being able to stand on an injured leg, they still face extreme mobility 
challenges.

    2.  The bill would create a pilot program to encourage the use of 
adapted housing grants among eligible disabled veterans and 
servicemembers who reside temporarily in housing owned by a family 
member. Under the pilot, a grant received to adapt the temporary family 
home would not count against the veteran when applying for additional 
grant money later to adapt their own home. The pilot would last for a 
year, during which time we would be able to evaluate whether this 
change helps more veterans access this program.
    The goal of H.R. 4319 is to make a good program even better by 
encouraging its use and helping more severely injured veterans who face 
great challenges to live easier, independent lives in the comfort of 
their homes.

                               __________
    Thank you for allowing me to testify today before the Subcommittee 
about H.R. 4319, which I introduced with the goal of helping more of 
our most severely disabled veterans and servicemembers achieve a 
barrier-free living environment following injuries sustained in 
military service to our country. My bill would allow additional 
veterans to take advantage of an important VA program to adapt their 
homes to their disabilities.
    The Specially Adapted Housing (SAH) Grant Program is a Department 
of Veterans Affairs program that seeks to provide a barrier-free living 
environment for veterans who are rated permanently and totally disabled 
due to service-connected conditions. To meet their mobility needs, 
these grants aid those veterans to adapt their homes to meet their 
specific mobility issues.
    The legislation I introduced, H.R. 4319, Specially Adapted Housing 
Assistance Enhancement Act, seeks to improve this program by making two 
changes.
    First, my bill would expand eligibility for adapted housing grants 
to veterans who have lost a limb and are further impeded from 
independent living by the limited use of a remaining arm or leg. 
Current law requires the complete loss or ``loss of use'' of more than 
one extremity to be eligible for adapted housing grants. However, many 
individuals with severely injured extremities retain a modicum of 
limited use of remaining limbs. Despite that residual use, such as 
being able to stand on an injured leg, they still face extreme mobility 
challenges. I believe the quality of life for these disabled 
individuals would greatly improve were they eligible for adapted 
housing grants. I have drafted H.R. 4319 in broad terms, and I am very 
interested in VA's comments and look forward to addressing any 
suggestions they may have while still meeting the intent of my bill.
    The second change my bill seeks to make is to create a pilot 
program to encourage the use of adapted housing grants among eligible 
disabled veterans and servicemembers who reside temporarily in housing 
owned by a family member. As we know, family caretakers often play a 
critical role in caring for injured servicemembers and veterans. Under 
the pilot, a grant received to adapt the temporary family home would 
not count against the veteran when applying for additional grant money 
later to adapt their own home. The pilot would last for a year, during 
which time we would be able to evaluate whether this change helps more 
veterans access this program.
    We have an obligation to care for those wounded in service to our 
country. The VA's Specially Adapted Housing Grant Program is an 
important program that greatly improves the quality of life for those 
who have sacrificed much for our country. I believe H.R. 4319 would 
make a good program even better by encouraging its use and helping more 
severely injured veterans who face great challenges to live easier, 
independent lives in the comfort of their homes.

                                 <F-dash>
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      June 14, 2010

Ms. Catherine A. Trombley
Assistant Director, National Economic Commission
The American Legion
1608 K Street, NW
Washington, DC 20006

Dear Ms. Trombley:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on June 10, 2010. Please answer the enclosed hearing questions 
by no later than Monday, July 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                                                    American Legion
                                                    Washington, DC.
                                                       July 7, 2010
Honorable Stephanie Herseth Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chair Herseth Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on the several pieces of pending legislation, 
including H.R. 4765 on June 10, 2010. I respectfully submit the 
following in response to your additional questions:
    1. Regarding H.R. 4765 (DeFazio), you are concerned that in order 
to represent a veteran in a disability claim a representative must be 
accredited by the VA. If a veteran participating in the work study 
program gives advice without being accredited, that veteran would be 
liable.

        a. Can you clarify your concern?

    The veterans' benefits system is a complex system which has 
undergone extensive revision by changes in law, internal regulatory 
change, and which has been altered by precedential decisions of the 
courts over the last 20 years. By VA's own estimates, it can take up to 
2 years or more to become fully conversant with the system. There 
exists a danger in providing advice if the advice does not carry a 
fully developed understanding of these regulations. Veterans may miss 
out on benefits that their advisor is unaware of, or may hamper their 
future success chances with a claim as a result of bad advice.
    For this reason, The American Legion and other service 
organizations that assist veterans with their claims require their 
professional service officers to undergo extensive training to ensure 
that the advice given to veterans in the prosecution of their claims is 
accurate and provides the best possible chance for winning those 
claims. Furthermore, the training ensures that the service officers are 
aware of all benefits to which the veteran may be entitled, and 
therefore there is a reduced chance of the omission of benefits for the 
veteran.

        b. Should veterans participate in the work-study program be 
        accredited by the VA?

    If a work study participant is going to be providing advice on 
filing for and obtaining benefits, they certainly should undergo some 
sort of certification process. Accreditation by VA would be helpful 
towards that end.

        c. Should a veteran participating in the work-study program be 
        restricted from giving any advice?

    If the process of accrediting work study participants proves to be 
unwieldy, then those participants can be limited from giving advice. It 
is possible to use this resource solely to provide veterans with basic 
information about VA programs and benefits, and to refrain from 
providing advice on the successful execution of a claim. VA provides 
information to veterans when they file their claims including a list of 
service organizations which can provide more technical assistance. Work 
study participants could direct veterans seeking more specific and 
technical information to that list, which would be non-preferential, 
but still provide the veteran with a list of qualified resources to get 
them the help they need with their claim.
    Thank you for your continued commitment to America's veterans and 
their families.

            Sincerely,

                                              Catherine A. Trombley
                   Assistant Director, National Economic Commission

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      June 14, 2010

Mr. Thomas J. Pamperin
Associate Deputy Under Secretary for Policy and Program Management
Veterans Benefits Administration
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Pamperin:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on June 10, 2010. Please answer the enclosed hearing questions 
by no later than Monday, July 26, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                        Questions for the Record
      U.S. House of Representatives Committee on Veterans' Affairs
                 Chairwoman Stephanie Herseth Sandlin,
                  Subcommittee on Economic Opportunity
                          Legislative Hearing
                             June 10, 2010

    Question 1: Under H.R. 4319 (Moran), would it be better if Section 
3 was eliminated and would the bill be easier to implement by VA if 
passed by Congress?

    Response: As a technical matter, deleting section 3 would eliminate 
the concern about the bill's ambiguity and also would make the bill 
easier to implement upon enactment.

    Question 2: Regarding H.R. 4635 (Fudge), what would be the impact 
to VA Guaranty Loan program if this bill was restricted to VA loan 
program?

    Response: VA believes that applying H.R. 4635 only to the VA Home 
Loan program would not have the positive effects intended. The 
requirements would disregard VA's extensive supplemental servicing 
efforts, add costs for Veterans and the Government, and continue to 
cause the interpretational problems we explained in our June 10 
testimony.

    VA's supplemental servicing efforts already include the best 
aspects of this bill's intent. Currently, VA regulations require that 
servicers attempt to contact every delinquent VA borrower. If the 
servicer is unable to reach the borrower, or if the borrower will not 
accept the servicer's contact, VA intercedes between the borrower and 
servicer in order to attempt to avoid foreclosure. These attempts are 
made to ensure that Veterans receive every possible opportunity to 
retain their homes, or if home retention is not possible, to dispose of 
the property in a dignified manner that is least damaging to the 
Veterans' credit histories.
    The mandatory mediation provisions in H.R. 4635 would require 
servicers to engage in additional contact, but would do so irrespective 
of the status of their (or VA's) previous communication attempts with 
the borrowers. This is duplicative and unnecessary, given VA's current 
outreach and loss-mitigation efforts.
    Furthermore, the mandatory mediation provisions of H.R. 4635 would 
result in additional costs for participants of VA's home loan program 
and for the Government. If servicers perceive higher administrative 
costs in servicing VA-guaranteed loans, those costs will be passed 
along to Veterans. Moreover, in typical delinquencies, attorney fees, 
appraisals, and other mandatory costs, such as mediation fees, are 
added by servicers to the overall delinquency amount borrowers must pay 
in order to reinstate their loan. If the loan ultimately forecloses, 
this added amount is payable by the Government in the guaranty claim 
payment.
    Finally, as we discussed in our June 10 testimony, there are a 
number of provisions in the proposed bill that are not clear. Limiting 
the bill so that it would apply only to VA-guaranteed loans would not 
resolve those issues. For this reason, VA is not able to provide cost 
estimates for H.R. 4635 at this time. VA welcomes the opportunity to 
work with Congress to clarify language in the proposed bill.

    Question 3: Since the work-study program has already been in effect 
for many years. In your estimation, what have been the results of the 
program for the congressional offices and the veterans?

    Response: Currently, title 38, U.S.C., section 3485(c) requires the 
Secretary of the Department of Veterans Affairs (VA) to conduct an 
annual work-study survey of each regional office to determine the 
number of individuals that can be effectively utilized and the types of 
duties such individuals may be required to perform in each geographical 
area VA activities are conducted. These work-study activities include 
those performed at VA facilities, VA hospitals, State homes, State 
approving agencies, and the Department of Defense. In fiscal year 2009, 
there were approximately 14,000 work-study students.

    Since the performance of work by a work-study student in a 
congressional office is not authorized under the current statute, VA 
does not collect data for this type of work-study position.

    Question 4: Regarding H.R. 4765 (DeFazio), we received a concern 
that in order to represent a veteran in a disability claim, a 
representative must be accredited by VA. If a veteran participating in 
the work-study program gives advice without being accredited, that 
veteran would be liable. Do you have any concerns regarding this 
possibility?

    Question 4(a): Should a veteran participating in the work-study 
program be restricted from giving any advice?

    Response: Yes, VA has concerns regarding the possibility of work-
study participants providing advice to claimants without being 
accredited representatives. All work-study participants should be 
subject to the 38 U.S.C. chapter 59 limitations on representing 
claimants for VA benefits. Title 38, U.S.C., section 5901 prohibits an 
individual from acting as an agent or attorney in the preparation, 
presentation, or prosecution of a claim of any claim under laws 
administered by VA unless the individual has been recognized for such 
purposes by the Secretary.

    VA recommends the language in H.R. 4765 be modified to allow work-
study students at congressional offices to be authorized to distribute 
forms or other materials and information that relate to the 
presentation of claims (including appeals) for benefits under laws 
administered by the Secretary.

    Question 5: On the draft bill that was introduced by Rep. Teague, 
would it be better if we left the categories subject to the Secretary's 
discretion in case a change needed to be made or should we change the 
current language to address your recommendations?

    Response: VA supports the original text in the draft bill which 
would allow the Secretary to determine appropriate categories and 
sectors of businesses for consideration of the award.

    Question 6: What are your thoughts on Michael Duenas' 
recommendation to recognize the use of a standard correcting lens that 
the word ``standard'' should be inserted before ``correcting lens'' 
which will allow a veteran to be approved for rehabilitative low vision 
adaptive medical device?

    Response: In reviewing the testimony, Dr. Duenas is differentiating 
between standard correcting lens (eyeglasses and contact lenses) versus 
low vision rehabilitation adaptive devices (specialty or non-standard 
correction). The use of the term standard correcting lens would be 
similarly interpreted as the policy that VA currently follows in the VA 
Schedule for Rating Disabilities: Eye for the Veterans Benefits 
Administration as delineated in 38 CFR Part 4. Using the 20/200 
corrected visual acuity criteria instead of the 5/200 corrected visual 
acuity criteria would enable more statutory or legally blind Veterans 
to qualify for the Special Housing Adaptations (SHA) program. VA looks 
forward to working with Congress to address the American Optometric 
Association's concerns.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
